No. __________
_______________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________
THERESA ORTLOFF,
Petitioner,
v.
DAVE TRIMMER, STEVEN VONHEEDER,
ELIZABETH KOSA, LYNNE GRIFFITH, AND
AMY SCARTON,
Respondents.
_____________________
On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Ninth Circuit
_____________________
PETITION FOR A WRIT OF CERTIORARI
_____________________
SHAWN HART
HART LAW OFFICE PLLC
P.O. Box 85342
Seattle, WA 98145
(206) 612-1809
Washington State Bar No. 25917
HartLawOffice@aol.com
Counsel for Petitioner
_______________________________________________

i
A. QUESTIONS PRESENTED FOR REVIEW
1.
Must the entire record, including motives,
main thrust of the speech, and all instances of
speech be reviewed under Connick v. Myers, 461
U.S. 138 (1983) to determine if there is a public
interest associated with the speech under the First
Amendment?
2.
Does Connick v. Myers, 461 U.S. 138 (1983)
require a public employee to protect a large class of
persons to be protected under the First Amendment
when the employee criticizes an illegal pay padding
scheme and an inefficient record keeping system in
an attempt to help junior employees?
3.
Is criticism of an inefficient public employee
record keeping system, such as paper notes kept by
a dispatcher showing work assignments and
availabilities, speech protected by the First
Amendment?
4.
Does placement of a public employee on a
blacklist that violates state law, such as the Do Not
Hire/Dispatch List, violate Procedural Due Process
under the Fourteenth Amendment?
5.
Does placement of a public employee on a
blacklist that violates state law, after the employee
criticizes shorting the pay of junior employees and
inefficient recordkeeping systems, constitute
retaliation under the First Amendment?

ii
6.
When an illegal blacklist subsequently
causes an employee to not be dispatched after the
employee is rehired under a collective bargaining
agreement, does the constructive discharge
constitute retaliation under the First Amendment
and a violation of Substantive Due Process?
7.
When a Federal Court interprets the
meaning of a collective bargaining agreement
phrase, such as a “bona fide” reason for
termination, must it consider practice, usage, and
custom of the term, and determine if it is vague
under standard contract interpretation rules?
8.
Does a collective bargaining agreement
create a property right for purposes of due process
under the Fourteenth Amendment where the state
agency’s employment specialist earlier rules
unavailabilities and comments from supervisors
limited the decision maker and could not form the
basis for terminating the employee?
9.
Is Procedural Due Process under the
Fourteenth
Amendment
violated
when
a
probationary employee with a property right in the
job is sent a termination letter without notice or
opportunity to respond to the disciplinary
allegations?
10.
Is Procedural Due Process under the
Fourteenth
Amendment
violated
when
a
probationary employee with a property right in the
job is terminated without having any disciplinary
charges brought from the written code of conduct
and progressive disciplinary procedure?

iii
11.
Is the Fourteenth Amendment Substantive
Due Process Clause violated when most of the
alleged unavailabilities used for termination are
shown to be false or double counted, and less in
number than other similarly situated employees
who were not terminated?
12.
Does a government manager violate the
Liberty Clause of the Fourteenth Amendment by
maintaining and distributing a blacklist in
violation of a state anti-blacklisting law, where the
blacklist prevents a re-hired public employee from
being dispatched and constructively discharged?
13.
Does a government manager violate the
Liberty Clause of the Fourteenth Amendment by
sending an internal e-mail that is then leaked to
the Press which makes adverse comments about
the whistleblower in an attempt to deflect blame
for Press criticism of unsupported raises for the
managers?
14.
Is a party required to first determine if emails are reasonably accessible under Federal Rule
of Civil Procedure 26(b)(2)(B) before the party can
limit discovery and production of the e-mails under
Federal Rules of Civil Procedure 33(a)(1) and
34(a)(1)(A) with search terms?
15.
Is the test for whether electronically stored
information is “reasonably accessible” under
Federal Rule of Civil Procedure 26(b)(2)(B) an
objective test and if so, are e-mails that have been
located, read, and collated “reasonable accessible”?

iv
B. PARTIES TO THE PROCEEDING
The caption contains the names of all
the parties to the proceedings below.

v
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1. TABLE OF CONTENTS
A.

QUESTIONS PRESENTED FOR REVIEW i

B.

PARTIES TO THE PROCEEDING . . . . . iv

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . v
1.

Table of Contents . . . . . . . . . . . . . . . v

2.

Appendices Table of Contents . . . . . ix

3.

Table of Cited Authorities . . . . . . . xv

D.

CITATION TO OPINION BELOW . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . .

F.

CONSTITUTIONAL PROVISIONS
AND LEGAL PRINCIPLES INVOLVED . . 2

G.

STATEMENT OF THE CASE . . . . . . . . . . 3

2

1.

Relevant Facts . . . . . . . . . . . . . . . . . 3

2.

Discovery Issues at the District
Court . . . . . . . . . . . . . . . . . . . . . . . . 10

3.

Summary Judgment at the
District Court . . . . . . . . . . . . . . . . . 13

vi
4.
H.

Appeal to the Ninth Circuit . . . . . . 13

REASONS FOR GRANTING THE WRIT . 14

1.
The Ninth Circuit misinterpreted
Connick v. Myers in ruling on Appellant’s
First Amendment Free Speech cause of action,
creating a conflict with an important precedent
of this Court, and the opinion differs with other
circuits regarding what parts of the
record must be considered . . . . . . . . . . . . . . . . . . 14
a.
Connick requires an examination
of the record as a whole for an effective
determination of the public interest and
to balance the interest of the employer
and employee . . . . . . . . . . . . . . . . . . . . . . . 16
b.
Resisting a pay padding scheme
involving shorting the pay of junior
employees so the managers can pad
their pay is speech protected by the
First Amendment . . . . . . . . . . . . . . . . . . . 17
c.
Connick does not require a large
class of persons to be protected, helping
employees resist a pay padding scheme is
protected, and the spreadsheet can be
distinguished from the Connick memo . . . 19
d.
Criticizing an inefficient public
employee record keeping system is also
protected by the First Amendment . . . . . . 21

vii
2.
The Ninth Circuit’s adoption of the
District Court’s dismissal of Appellant’s
retaliation claim violates Pickering . . . . . . . . . .

22

3.
The Ninth Circuit misinterpreted
Roberts v. U.S. Jaycees and Pickering v.
Board of Education when ruling on
Appellant’s Association Claims . . . . . . . . . . . . .

25

4.
This Court’s rules governing the
interpretation of collective bargaining
agreements were not followed, causing the
Ninth Circuit to not find a property right in
Appellant’s job . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
a.
The Appellees’ employment law
specialist designated in the hiring letter
to interpret the rules that applied to
Appellant created a limit on the ability
to terminate and a property right under
the Fourteenth Amendment . . . . . . . . . .

28

b.
The Ninth Circuit’s interpretation of
this Court’s precedent gives an employee
bringing a claim under the Fourteenth
Amendment fewer rights than statutory
enactments . . . . . . . . . . . . . . . . . . . . . . . . 29
c.
The LaCroix unavailability was
not a bona fide reason related the business
operation and Appellant had fewer
unavailabilites than other employees who
were not terminated . . . . . . . . . . . . . . . . . 30

viii
5.
Having found no Property right in her
job, the Ninth Circuit did not discuss
Appellant’s Procedural Due Process claims . . . . 31
6.
Appellant’s Substantive Due Process
rights were violated when the termination
was based on false information, and after she
was rehired, a blacklist caused a constructive
discharge . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

33

7.
The Ninth Circuit misinterpreted this
Court’s long line of cases that have defined
the Liberty Interest under the Fourteenth
Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . .

34

a.
The blacklist violated Appellant’s
Fourteenth Amendment Liberty Interest,
because it prevented Appellant from
being dispatched in 2014 after the union
rehired her under the CBA . . . . . . . . . . . 34
b.
The Griffith e-mail leaked to the
Press, was initially circulated internally
to all WSF workers and labeled the
whistleblowers “former disgruntled
employees” . . . . . . . . . . . . . . . . . . . . . . . .

35

8.
The Ninth Circuit’s opinion created
an important federal question regarding
when electronically stored information
must be produced . . . . . . . . . . . . . . . . . . . . . . . .

36

ix
a.
The standard of review for the
legal interpretation of “reasonably
accessible” for electronically stored
information should be de novo . . . . . . . . . 37
b.
After a party locates and reads
responsive e-mails, they are “reasonably
accessible” for interrogatories and
requests for production under an objective
test, and the party can not condition
production on search terms . . . . . . . . . . 38
c.
The union copies of Appellees’
smoking gun e-mails show the motive
for the withholding, and the Appellees
continue to withhold e-mails and other
documents . . . . . . . . . . . . . . . . . . . . . . . . . 40
I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . 40
2. APPENDICES TABLE OF CONTENTS

Order Denying Rehearing and Rehearing
En Banc, United States Court of Appeals
for the Ninth Circuit, Ortloff v. Trimmer,
et al., 9th Cir. Case No. 18-35538, dkt. 36
(August 23, 2019) . . . . . . . . . . . . . . . . . . . . . . App. 1
Opinion, United States Court of Appeals
Appeals for the Ninth Circuit, Ortloff v.
Trimmer, et al., 9th Cir. Case No. 18-35538,
dkt. 35 (July 18, 2019) . . . . . . . . . . . . . . . . . . App. 2

x
Judgment, United States District Court
For the Western District of Washington,
Ortloff v. Trimmer, et al., U.S. Dist. Ct.
(W.D. Wash.) Case No. 2:16-cv-01257-RSL,
dkt. No. 76 (May 29, 2018) . . . . . . . . . . . . . . App. 6
Opinion, United States District Court
For the Western District of Washington,
Ortloff v. Trimmer, et al., U.S. Dist. Ct.
(W.D. Wash.) Case No. 2:16-cv-01257-RSL,
dkt. No. 75 (May 29, 2018) . . . . . . . . . . . . . . . App. 7
Order on Plaintiff’s Motion for Discovery
Default or to Compel Discovery Responses,
United States District Court For the
Western District of Washington,
Ortloff v. Trimmer, et al., U.S. Dist. Ct.
(W.D. Wash.) Case No. 2:16-cv-01257-RSL,
dkt. No. 35 (June 5, 2017) . . . . . . . . . . . . . . App. 20
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . App. 24
Wash. Rev. Code § 47.64.170 . . . . . . . . . . . App. 25
Wash. Rev. Code § 49.44.010 . . . . . . . . . . . App. 26
Wash. Rev. Code § 49.52.050(2) . . . . . . . . . App. 28
46 C.F.R. § 15.405 . . . . . . . . . . . . . . . . . . . . App. 29
46 C.F.R. § 199.180(b)(1) . . . . . . . . . . . . . .

App. 30

xi
Marine Employee’s Beneficial Association
Collective Bargaining Agreement, MEBA,
Unlicensed Engineers, 2011-2013, § 29.08
(Rule prohibiting managers from
taking penalty time from junior employees)
2:16-cv-01257-RSL, dkt. 62, p. 14 . . . . . . . App. 31
Collective Bargaining Agreement, MEBA,
Unlicensed Engineers, 2013-2015, § 33.01
(Probationary employees)
2:16-cv-01257-RSL, dkt. 49-1, p. 86 . . . . .

App. 32

Code of Conduct with Progressive
Disciplinary Process, Washington State
Ferries, 2013
2:16-cv-01257-RSL, dkt. 49-1, p. 89-92 . . .

App. 33

Susannah Frame, “State Ferries
apologizes for misleading claims about
pay raises,” King-5 News Transcript,
December 2, 2016
2:16-cv-01257-RSL, dkt. 23, p. 17 . . . . . . .

App. 36

Susannah Frame, “Whopping pay raises
on deck for some ferry workers,” King-5
News Transcript, November 22, 2016
2:16-cv-01257-RSL, dkt. 23, p. 12 . . . . . . .

App. 40

E-mail from Lynne Griffith to WSDOT
WSF All Staff, Subj: Media Coverage,
November 21, 2016
2:16-cv-01257-RSL, dkt. 45, p. 2 . . . . . . . .

App. 46

xii
Jeff Duncan, MEBA Union Branch Agent
copy of e-mail from Elizabeth Kosa to Jeff
Duncan, Bill Knowlton, and Chad Scott,
January 22, 2015 containing blacklist and
Linda Manning E-mail dated January 22,
2015
2:16-cv-01257-RSL, dkt. 48, p. 167 . . . . . . App. 48
Bill Knowlton, MEBA Union
Representative copy of e-mail from Jeff
Duncan to George Capacci, cc Elizabeth
Kosa, Chad Scott, Bill Knowlton, Susan
Moriarty, and Scott Nicholson, January
7, 2015
2:16-cv-01257-RSL, dkt. 48, p. 163 . . . . . . . App. 49
Letter from Steven Vonheeder to Theresa
Ortloff, November 22, 2013. (Termination
Letter)
2:16-cv-01257-RSL, dkt. 49-1, p. 67 . . . . . . App. 50
E-mail from Pete Williams to Elizabeth
Nicoletti (Kosa), November 12, 2013
2:16-cv-01257-RSL, dkt. 49-1, pp. 31-32 . .

App. 52

E-mail from Theresa Ortloff to Rachel
Morrison, October 7, 2013
2:16-cv-01257-RSL, dkt. 49-1, pp. 32-33 . .

App. 53

E-mail from Linda Manning to Elizabeth
Nicoletti (Kosa), November 7, 2013
2:16-cv-01257-RSL, dkt. 49-1, p. 42 . . . . . . App. 55

xiii
E-mail from Elizabeth Nicoletti (Kosa) to
Linda Manning, November 5, 2013
2:16-cv-01257-RSL, dkt. 49-1, p. 42 . . . . . . App. 56
E-mail from Mike LaCroix to Theresa
Ortloff, copied to Shane Kelly and
Elizabeth Nicoletti (Kosa), November 5,
2013
2:16-cv-01257-RSL, dkt. 49-1, p. 50 . . . . . . App. 57
E-mail from Thomas Grabecki to Rachel
Morrison, October 5, 2013
2:16-cv-01257-RSL, dkt. 49-1, p. 18 . . . . . . App. 58
E-mail from David Trimmer to Elizabeth
Nicoletti (Kosa), August 13, 2013
2:16-cv-01257-RSL, dkt. 48, p. 43 . . . . . . . . App. 59
E-mail from Elizabeth Nicoletti (Kosa) to
David Trimmer, August 12, 2013
2:16-cv-01257-RSL, dkt. 48, pp. 43-44 . . . . App. 61
E-mail from David Trimmer to Elizabeth
Nicoletti (Kosa), August 11, 2013
2:16-cv-01257-RSL, dkt. 48, p. 44 . . . . . . . . App. 62
Excerpt, Declaration of Theresa Ortloff,
October 2, 2017, p. 2.
2:16-cv-01257-RSL, dkt. 48, p. 2 . . . . . . . . . App. 63
Excerpt, Washington State Ferries Time
Sheet for David E. Trimmer for time period
07/01/13 to 07/31/13, line 5
2:16-cv-01257-RSL, dkt. 62, p. 10 . . . . . . . . App. 65

xiv
Excerpt, Washington State Ferries Time
Sheet for David E. Trimmer for time period
06/01/13 to 06/30/13, line 5
2:16-cv-01257-RSL, dkt. 62, p. 9 . . . . . . . . . App. 66
Excerpt, Washington State Ferries Time
Sheet for David E. Trimmer for time period
05/16/13 to 05/31/13, line 5
2:16-cv-01257-RSL, dkt. 62, p. 8 . . . . . . . . . App. 67
Excerpt, Washington State Ferries Time
Sheet for David E. Trimmer for time period
04/01/13 to 04/15/13, line 3
2:16-cv-01257-RSL, dkt. 62, p. 7 . . . . . . . . . App. 68
Excerpt, Washington State Ferries Time
Sheet for David E. Trimmer for time period
03/16/13 to 03/31/13, line 6
2:16-cv-01257-RSL, dkt. 62, p. 6 . . . . . . . . . App. 69
Excerpt, Letter from David H. Moseley and
Steven R. Vonheeder to Theresa Ortloff,
March 6, 2013 (Hiring Letter)
2:16-cv-01257-RSL, dkt. 49-1, p. 82-83 . . . . App. 70
Excerpt, Special Projects List produced in
Newmon et al. v. Nitchman et al. containing
the name “Dave E. Trimmer, Jr.”
2:16-cv-01257-RSL, dkt. 46, p. 5 . . . . . . . . . App. 71
Excerpts, Plaintiff’s Interrogatories and
Requests for Production to Lynne Griffith
with Answers and Responses, pp. 7,8,12,13.
2:16-cv-01257-RSL, dkt. 23, p. 29,30,34,35 . App. 72

xv
Excerpts, Declaration of Theresa Ortloff,
July 24, 2017, pp. 2-12.
2:16-cv-01257-RSL, dkt. 49, pp. 2-12 . . . . . . App. 76
Excerpts, Deposition Transcript of Dave
Hurtt, June 2, 2017, p. 4-13.
2:16-cv-01257-RSL, dkt. 48, pp. 122-31 . . . . App. 89
3. TABLE OF CITED AUTHORITIES
a.

Cases

Allen v. City of Beverly Hills, 911 F.2d 367
(9th Cir. 1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Anderson v. Liberty Lobby, Inc. 477 U.S.
242 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15,30
Board of Regents v. Roth, 408 U.S. 564 (1972) . . 27
Cleveland Board of Education v. Loudermill,
470 U.S. 532 (1985) . . . . . . . . . . . . . . . . . . . . . . . 31
Cohen v. Fred Meyer, Inc., 686 F.2d 793
(9th Cir. 1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Connick v. Myers, 461 U.S. 138
(1983) . . . . . . . . . . . . . . . . . . . . 14,15,16,17,18,19,20
County of Sacramento v. Lewis, 523 U.S. 833
(1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Fair Housing of Marin v. Combs, 285 F.3d
899 (9th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . 35,36

xvi
Garrison v. Louisiana, 379 U.S. 64 (1964) . . . . . 20
Givhan v. W. Line Consol. Sch. Dist.,
439 U.S. 410 (1979) . . . . . . . . . . . . . . . . . . . . . . . 17
Harrah Independent School District v.
Martin, 440 U.S. 194,198 (1979) . . . . . . . . . . . . . 33
Hyland v. Wonder, 972 F.2d 1129 (9th Cir.
1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
Marable v. Nitchman, 511 F.3d 924 (9th Cir.
2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5,6,18,20
Mathews v. Eldridge, 424 U.S. 319 (1976) . . . . . 31
McGinest v. GTE Serv. Corp., 360 F.3d 1103
(9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Mitchell v. Hillsborough County, 468 F.3d
1276 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Moore v. Commercial Aircraft, 278 P.3d 197
(Wash. Ct. App. Div. I), rev. denied, 291 P.3d
254 (Wash. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . 21
New York Times Co. v. Sullivan, 376 U.S. 254
(1964) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Palmer v. Pioneer Inn Assoc., Ltd., 338 F.3d
981 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . . 37
Paul v. Davis, 424 U.S. 693 (1976) . . . . . . . . . . . 34

xvii
Pickering v. Board of Education, 391 U.S.
563 (1968) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23,25
Roberts v. U.S. Jaycees, 468 U.S. 609 (1984) . 25,26
Roth v. U.S., 354 U.S. 484 (1957) . . . . . . . . . 20,34
Transportation-Communication Employees
Union v. Union Pacific R.R., 385 U.S. 157
(1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27,28
Villiarimo v. Aloha Island Air, Inc., 281 F.3d
1054 (9th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . 23
b.

Statutes

28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 623(f) . . . . . . . . . . . . . . . . . . . . . . . 29,30
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . 2,3,14
42 U.S.C. § 1988 . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Wash. Rev. Code § 47.64.170 . . . . . . . 3,18,19,23,27
Wash. Rev. Code § 49.44.010 . . . . . . . . . . . . 3,21,24
Wash. Rev. Code § 49.52.050(2) . . . . . . . . . 18,19,23
c.

Other

Sup. Ct. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 14

xviii
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . 14,22,25,27,34,37
U.S. Const. amend. I . . . . . . . . . . . . . . 2,13,14,22,23
U.S. Const. amend. XIV. . . . . . . . . . . . 2,26,31,33,34
Fed. R. Civ. P. 1 . . . . . . . . . . . . . . . . . . . . . . . . . . 39
Fed. R. Civ. P. 26(b)(1) . . . . . . . . . . . . . . . . . . 37,38
Fed. R. Civ. P. 26(b)(2)(B) . . . . . . . . . . . . . . . . 37,38
Fed. R. Civ. P. 33(a)(1) . . . . . . . . . . . . . . . . . . . .

37

Fed. R. Civ. P. 34 (a)(1)(A) . . . . . . . . . . . . . . . . 37,38
Fed. R. Civ. P. 37(b)(2)(A)(vi) . . . . . . . . . . . . . . .

37

Fed. R. Civ. P. 37(c)(1)(C) . . . . . . . . . . . . . . . . . .

37

Fed. R. Civ. P. 56(a) . . . . . . . . . . . . . . . . . . . . . . . 15
46 C.F.R. § 15.405 . . . . . . . . . . . . . . . . . . . . . . . . . 4
46 C.F.R. § 199.180(b)(1) . . . . . . . . . . . . . . . . . . . . 4
Fed. R. Civ. P. 26 advisory committee’s note;
26(b)(2)(B)(2006 Amendment) . . . . . . . . . . . . 38,39
Chief Justice John Roberts, “2015 Year-End
Report on the Federal Judiciary,” December
31, 2015, p. 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

1
The Petitioner, THERESA ORTLOFF,
requests the Court issue a writ of certiorari to
review the Order of the Ninth Circuit Court of
Appeals entered in this case on July 18, 2019
(Appendix “App.”-2), and the Order denying
rehearing and rehearing en banc entered on August
23, 2019 (App.-1).
D. CITATION TO OPINION BELOW
Order Denying Petition for Rehearing and
Rehearing En Banc, Ortloff v. Trimmer, et al., 9th
Cir. Case No. 18-35538, dkt. 36 (August 23, 2019).
App-1. The mandate issued on September 3, 2019.
Opinion, Ortloff v. Trimmer, et al., 9th Cir.
Case No. 18-35538, dkt. 35 (July 18, 2019.), 773
Federal Appendix 903 (Mem). App.-2.
Judgment, Ortloff v. Trimmer, et al., U.S.
Dist. Ct. (W.D. Wash.) Case No. 2:16-cv-01257-RSL,
dkt. No. (“Dist.Ct. dkt.”) 76 (May 29, 2018). App.-6.
Opinion, Ortloff v. Trimmer, et al., U.S. Dist.
Ct. (W.D. Wash.) Case No. 2:16-cv-01257-RSL, dkt.
75 (May 29, 2018), 2018 WL 2411755. App.-7.
Order on Plaintiff’s Motion for a Discovery
Default or to Compel Discovery, Ortloff v. Trimmer,
et al., U.S. Dist. Ct. (W.D. Wash.) Case No. 2:16-cv01257-RSL, dkt. No. 35 (May 29, 2018). App.-20.

2
E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked
pursuant to 28 U.S.C. § 1254(1).
F. CONSTITUTIONAL PROVISIONS
AND LEGAL PRINCIPLES INVOLVED
The First Amendment to the Constitution
provides in relevant part: “Congress shall make no
law … abridging the freedom of speech … or the
right of the people peaceably to assemble ...” U.S.
Const., amend. I.
The Due Process Clause of the Fourteenth
Amendment to the Constitution provides that no
“State [shall] deprive any person of life, liberty, or
property without due process of law.” U.S. Const.,
amend. XIV.
The Federal Civil Rights Law states: “Every
person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State …, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges,
or immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action …” 42 U.S.C. § 1983, App.-24.
Washington State’s Blacklisting Law,
Section 49.44.010 prohibits blacklisting states
blacklisting is established if there is an act to “…
send or deliver … or publish or cause to be
published any statement for the purpose of

3
preventing any other person from obtaining
employment …” Wash.Rev.Code § 49.44.010, App.26.
Washington State’s Law authorizing a
collective bargaining agreement and making it
state law is Section 47.64.170. Wash.Rev.Code §
47.64.170. App.-25.

4
G. STATEMENT OF THE CASE
1. Relevant Facts
Theresa Ortloff was a probationary on-call
oiler at the Washington State Ferries (“WSF”) who
was terminated in November, 2013. App.-50. In
2014, her union, the Marine Employees’ Beneficial
Association
(“MEBA”)
concluded
she
was
wrongfully terminated, she was rehired under the
collective bargaining agreement (“CBA”), and her
name was sent to the WSF Dispatcher to be
dispatched. The management of the Washington
State Ferries had a secret, illegal blacklist that
Appellant was placed on which prevented her from
being dispatched.
App.-48.
No notice or
opportunity to be heard were given prior to the
2013 termination or the 2014 refusal to dispatch,
raising Procedural Due Process issues under the
Fourteenth Amendment. App.-82,84.
The case has important First Amendment
issues, because throughout the case, each of the
reasons for termination have been shown to be
false or not rule violations. Appellees are now
down to one incident where Staff Chief LaCroix
attempted to short Appellant’s pay under a wider
pay padding scheme to short the pay of junior
employees so the managers could pad the withheld
pay as overtime.
The Appellant spent 18 months preparing to
be an oiler at the Ferries. App.-76. She attended a
two month school down in San Diego, California.
Id. She attended classroom training, and she
performed an internship working on several ferries.
Id. Staff Chief Kavanaugh certified Theresa Ortloff

5
was qualified to work as an oiler under U.S. Coast
Guard regulations 46 C.F.R. §§ 15.405 and
199.180(b)(1). App.-76,22,23. Ms. Ortloff was
again certified under the U.S. Coast Guard
regulations by another chief on August 8, 2013 by
another chief. Dist.Ct. dkt. 49-2, p. 30.
The Washington State Ferries is the largest
ferry system in the nation with 23 regular domestic
ferry routes and one international run.
Unfortunately, down in the depths of the engine
rooms, a group of chiefs have a regular system of
pay padding that has developed over the last 25
plus years.
The pay padding schemes have
partially resisted detection, because the senior
“staff” chief on each ferry signs off on the hand
written pay sheets, including his own, and sends
them ashore to an accounting department.
During her deposition, Kosa (maiden name
Nicoletti in some e-mails) admitted the average
amount the chiefs add to their pay is $51,000 per
year on a $99,000 base salary. Dist.Ct. dkt. 48, p.
75. Shortly after this case was filed in 2016, 50
chiefs and senior personnel attempted a 25% per
year pay increase, which would have raised yearly
compensation up to as much as $210,000, since
many were padding at least $70,000, but the
whistleblowers and the news media defeated the
plan. App.-40.
The Appellant’s boyfriend, Floyd McLaughlin
is a Washington State Ferry chief who has been
engaged in whistleblower activities at the WSF for
at least 19 years. Dist.Ct. dkt. 26, p. 2. He has
prevented wasteful spending that likely amounts to
tens of millions of dollars, and maybe more
depending on how future savings are calculated.

6
Mr. McLaughlin has testified in several
administrative and federal court proceedings,
including Marable v. Nitchman, 511 F.3d 924 (9th
Cir. 2007) and he is generally known at the Ferries
as a whistleblower. Dist.Ct. dkt. 26, pp. 2,3. Mr.
McLaughlin has been regularly harassed and he
was even harassed between two days of testimony
in Federal Court, causing a U.S. District Court
judge to order a defendant in that case to stay off
the social media he was using to harass Mr.
McLaughlin and damage his business plans. Id. at
p. 3. The Marable case and the revelation the
management had run up $1 billion in debt stopped
several of the pay padding schemes 12 years ago,
but it appears the pay padding has slowly
percolated back into the engine rooms.
When Appellant reported for work on the
Ferry Chelan in August, 2013, her supervisor
Trimmer immediately created a hostile work
environment. App.-77. He followed her around and
while Appellant was hooking up a sewage
connection, he came out from where he was hiding
and yelled at her to go below to the engine room
without explanation. Id.
That night Trimmer wrote a series of
adverse e-mails regarding Appellant.
App.-62.
Kosa was a manager above Trimmer and requested
Trimmer follow the written progressive disciplinary
policy which starts with counseling. App.-61,33.
Trimmer refused to follow the written progressive
disciplinary policy. App.-59. Trimmer also did not
bring Appellant up on any Code of Conduct
charges. App.-59,33. In fact to this day, the
Appellees admit Appellant violated no rules.
Dist.Ct. dkt. 48, pp. 23,58-60.

7
While investigating the motive for Trimmer’s
adverse e-mails, Appellant discovered Trimmer had
been involved in the Special Projects and when the
Marable case largely shut them down with
McLaughlin’s testimony, Trimmer likely lost
overtime. App.-71.
Following the Marable
verdict, the local NBC affiliate KING-5 News
reporter Susannah Frame broadcast an award
winning series called, “Waste on the Water,” and
public criticism helped shut many of the pay
padding programs down. App.-41,42.
Appellant discovered Trimmer was engaged
in shorting the pay of junior employees in violation
of Washington State Law during the timeframe he
harassed Appellant. App.-63-69, Dist.Ct. dkt. 62,
pp. 1-2. The CBA has a provision for double time
for junior employees for cleaning that is
particularly dirty, called penalty time, but
managers are forbidden to claim this double time
on their chief’s pay except in emergencies. App.-31,
Dist.Ct. dkt. 62, p. 2. Trimmer was taking this
time and doubling his chief’s pay, so he paid
himself $87 per hour to do basic cleaning on his off
time. App.-63-69.
Trimmer refused to provide his W-2’s during
discovery,
citing
a
privacy
exception
to
Washington’s Public Records Act, and many pay
sheets he did provide showed signs of being
amended. The pay sheets provided are not filed
with the Federal Government and therefore could
have
been
amended
without
detection.
Nonetheless, after some documents were provided
after the close of discovery, Appellant discovered
Trimmer padded approximately $17,000 in pay in
2013 and violated Washington State Law by

8
shorting junior employees. App.-63-69, Dist.Ct.
dkt. 62, pp.1-2.
In late 2013, Kosa suggested she heard
“stirrings” in the fleet regarding Appellant’s
performance. App.-56. The “stirrings” included the
Trimmer e-mails about Appellant that violated no
rules. App.-62. The e-mails included to criticize
Appellant included her complaint about the
employee recordkeeping system that was allowing
someone to go into the Dispatcher’s office and
throw away slips of paper that showed when
Appellant was to be dispatched for work and when
she was unavailable with advanced approval.
App.-53,54,58.
Kosa requested an opinion from Manning,
the employment specialist designated in the hiring
letter to interpret the rules related to Appellant’s
employment.
App.-56,70.
Manning stated on
November 7, 2013, all unavailabilities and all other
issues did not support termination. App.-55. This
only left alleged unavailabilities 20 and 21 (which
are double counted since the watch goes past
midnight) and are in response to the LaCroix
harassment. App.-75,80.
Appellant was sent to the boat on which
LaCroix was a manager. After Appellant filled out
her pay sheet, LaCroix changed her pay rate to an
incorrect lower pay.
Ms. Ortloff opposed the
incorrect pay (since she had heard about this pay
padding method by the managers) and she was
harassed. LaCroix sent an e-mail to Kosa claiming
he felt harassed after he changed Appellant’s pay to
an incorrect amount. App-56. Appellant requested
an unavailability according to the rules and there
was no effect on the ferry since it was tied up at the

9
time.
App.-80,81.
To prevent other junior
employees from having their pay shorted,
Appellant made a spreadsheet to show the junior
employees how to calculate their pay and explained
the spreadsheet to fellow junior employees. App.81, ¶ 31. It is believed the spreadsheet is still in
use to this day. Id.
The Appellees, and Manning, the personnel
specialist designated in the hiring letter to
interpret the rules that apply to Appellant, admit
the Appellant violated no Washington State Ferry
rules. App.-55,70.
Appellant then received a letter of
termination from Vonheeder without any notice or
opportunity to be heard. App.-50. Appellant and
her union representative requested a hearing to
respond to the allegations, which have been shown
to be unfounded, but the request was denied. After
the MEBA union reviewed the case in 2014, it
decided Ms. Ortloff had been wrongfully terminated
and rehired her under the CBA.
App.-83,84.
Appellant’s name was sent as an employee to be
dispatched, but the management refused to
dispatch Appellant. Id.
Manning ultimately
admitted to Appellant in late December, 2014 the
management had blacklisted her in some way and
she would never be hired. App.-84. See App.-48 for
one of the blacklists.
The early months of this case demonstrate
the atmosphere that has allowed the pay padding
to creep back down into the engine rooms and take
root. It appears some managers who had been
scheming a pay increase realized the case would
bring unwanted attention to the unfounded
request, so they chose that moment to attempt the

10
pay increase. App.-40. It proposed the manager’s
current $99,000 base salary plus their average
$51,000 in overtime and padding, be increased by
another $70,000, making the compensation for
some of these 50 managers up to $210,000. Id.
Whistleblowers informed KING Channel 5 News of
the unfounded proposed raise, KING-5 investigated
the raise, and wrote a news story that was
broadcast on television and published on their
website.
Griffith argued she had a study that
supported the raise. App.-36,46. KING-5 looked at
the study and found it did not support the raise and
in fact showed the managers were being overpaid
compared to their peers. Id. Right before the
second story aired, Griffith sent an internal e-mail
to all WSF employees that blamed the criticism on
“former disgruntled employees.” App.-46. The email was leaked to KING-5, and it formed the basis
of another news story. Id. Griffith then announced
her intention to resign two months later, on or
about January 31, 2017.
2. Discovery Issues at the District Court
After the Appellees were served with the
Complaint, Appellees admitted they located the emails related to Appellant’s employment and the emails related to the six possible comparator
probationary
employees
identified
in
the
Complaint.
Appellees stated they were reading the emails related to the case, with several Assistant
Attorneys General, and were not sure they could
get them all read before in Initial Disclosures were

11
due. The Appellees then stated they did read all of
the relevant e-mails prior to the due date of the
Initial Disclosures in December, 2016. Dist.Ct. dkt.
23, pp. 57.
Appellant submitted a set of interrogatories
and requests for production that were due a couple
days before Griffith was scheduled to resign.
Griffith provided interrogatory answers but
failed to provide most of the e-mails related to
Appellant, that the Appellees had admitted they
located and read a month earlier. Griffith also
submitted a list of 21 unavailabilities for Appellant.
In her detailed declaration Appellant showed at
least 11 were either false statements through
documentation or double counted. App.-76-80.
Griffith then physically left the State of
Washington, and claimed she wanted to spend
more time with family.
Appellant requested all e-mails related to
her that Appellees read. The Appellees stated they
would only provide the e-mails if the Appellant
provided “search terms.” The Appellant reminded
Appellees they previously read the e-mails and they
were accessible. Appellant further did not know
key information, such as the terms being used in
Appellees’ illegal blacklisting system. During a
discovery conference, the Appellees cited statistics
about Appellant’s unavailabilities compared to the
comparators from the e-mails, showing not only
that they located and read the e-mails, but they
had collated the information in the e-mails
sufficiently to produce statistics. Dist.Ct. dkt. 23,
pp. 57.
After the discovery conference Appellant
filed a discovery motion to get the e-mails related to

12
the Appellant and comparator probationary
employees for the five months they were on
probation. The Appellees to not provide the emails, which suggested the content of some of emails was adverse. The motion was denied in part
and required Appellant to provide 10 search terms
for the e-mails related to the Appellant. App.-23.
The discovery deadline was looming, so the
Appellant chose one of the comparators, Dave
Hurtt, and deposed him in the last few days of
discovery.
He
had
approximately
13
unavailabilities, including 2 related to his
girlfriend and he was not fired. App.-89-92.
Appellant had between 7 and 10 unavailabilities
and she was fired. App.-76-82. The Appellees’
employee record keeping system is ineffective, and
therefore Appellant’s documentation proving it was
between 7 and 10 is the best estimate. Id.
During one of the depositions at the end of
discovery, Appellant was handed four e-mails the
MEBA union had given the Washington State
Attorney General’s Office 30 days before. App.48,49. Apparently the union was watching the
proceedings and noticed the blacklists had not been
discussed and introduced the blacklisting e-mails
by providing them to the Appellees.
The e-mails are classic smoking gun e-mails
that discuss one of the blacklists the management
had been secretly keeping in violation of
Washington State Law. App.-26. The e-mails show
Kosa distributing the blacklist, which contains the
Appellant’s name. App.-48. They should have been
provided five months earlier when the requests for
production were due, because they are responsive
to Interrogatory No. 1 and Request for Production

13
A. App-75 (indicating Appellees had 1,458 e-mails
related to Appellant).
3. Summary Judgment at the District
Court
The District Court suspended the case just
before trial. Since the Appellees repeatedly stated
the Appellant had not updated the Complaint to
reflect the facts she discovered in the case,
Appellant filed a Motion to Amend the Complaint,
which was granted. After the Complaint was
amended, the District Court dismissed the case by
summary judgment. App.-7.
4. Appeal to the Ninth Circuit
The Appellant filed an appeal to the Ninth
Circuit Court of Appeals. The basis of jurisdiction
was 28 U.S.C. § 1291. The Ninth Circuit affirmed
the District Court in an Order filed on July 18,
2019.
App.-2.
Appellant filed a Motion for
Rehearing and Rehearing En Banc, which was
denied on August 23, 2019. App.-1.

14
H. REASONS FOR GRANTING THE WRIT
1.
The Ninth Circuit misinterpreted
Connick v. Meyers when ruling on Appellant’s
First Amendment Free Speech cause of
action, creating a conflict with an important
precedent of this Court, and the opinion
differs with other circuits regarding what
parts of the record must be considered.
The Appellant brought Cause of Action
Three under the First Amendment Free Speech
Clause, and like all of Appellant’s causes of action,
under 42 U.S.C. §§ 1983 and 1988. U.S. Const.,
amend. I, 42 U.S.C. §§ 1983, 1988.
The Ninth Circuit’s opinion should be
reviewed under Supreme Court Rule 10(c) since it
decided an important issue of federal law that
conflicts with an important precedent of this Court.
S.Ct.R. 10(c).
The Ninth Circuit’s opinion is brief, but it
does not appear to consider all parts of the record
that other circuits consider, making it also
reviewable under Rule 10(a) for this reason. The
Eleventh Circuit, for example, interprets the
Connick “whole record” to include the “main thrust”
of the speech, the motive of the speech, and who the
speech is communicated to.
Mitchell v.
Hillsborough County, 468 F.3d 1276,1283 (2006).
The standard of review for a summary
judgment order is de novo.
The court must
determine, viewing the evidence in the light most
favorable to the nonmoving party, whether there
are any genuine issues of material fact and
whether the movant was entitled to judgment as a

15
matter of law. Fed.R.Civ.P. 56(a), Anderson v.
Liberty Lobby, Inc., 477 U.S. 242,249 (1986). The
Court must not weigh the evidence or determine
the truth of the matter but only determine whether
there is a genuine issue for trial. Id.
There are three examples of protected
speech. Appellant caught LaCroix shorting her pay
to support a pay padding scheme. App.-80,81.
Appellant showed there is a pattern of this conduct
when she showed Appellee Trimmer was involved
in the same scheme. Trimmer took hours from
junior personnel, just as LaCroix had attempted,
and then padded that time up at his chief’s rate of
pay. App.-63-69.
The second example of speech and conduct
protected by the First Amendment is the
production and distribution of a spreadsheet with
instructions to other junior personnel to prevent
the managers from shorting their pay. App.-81.
Third, Appellant criticized the inefficient, ad
hoc paper recordkeeping system which allowed
junior employees to be harassed by removing the
slips of paper from the Dispatcher’s office that
indicated work assignments and approved
unavailabilities. App.-53,54.
There are two relevant time periods; the
2013 termination and the 2014 refusal to hire due
to the blacklist after the union rehired Appellant
and the management refused to dispatch her.

16
a.
Connick requires an examination
of the record as a whole for an effective
determination of the public interest,
and to balance the interest of the
employer and employee.
The Ninth Circuit erred in interpreting
Connick v. Myers, 461 U.S. 138, 146 (1983), because
it did not consider the whole record. It stated even
if there was a connection between helping other
employees and her discharge, the First Amendment
would not protect the actions. App.-4, n. 1. The
Ninth Circuit went on to state there were no facts
connecting the discharge to championing the rights
of probationary employees generally. App.-4.
The Ninth Circuit did not consider all of
Appellant’s motives and actions, such as criticizing
the recordkeeping for on-call oilers that allowed the
paper slips containing the work assignments and
unavailabilities of junior employees to be easily
discarded. App.-53,54. The main thrust was
clearly to improve the conditions that were causing
inefficiency and enabling harassment.
Id.
Appellant could have focused only on her own
interests by ignoring the pay padding and the
inefficient record keeping system, but she chose to
help others whose rights were being violated
through respectful criticism.
In Connick, this Court stated, “Whether an
employee’s speech addresses a matter of public
concern must be determined by the content, form,
and context of a given statement, as revealed by
the whole record.” Connick, 461 U.S. at 148.
Content of the speech is the most important
factor when examining the record as a whole. See

17
Givhan v. W. Line Consol. Sch. Dist., 439 U.S.
410,415-16 (1979).
b.
Resisting a pay padding scheme
involving shorting the pay of junior
employees so the managers can pad
their pay is protected by the First
Amendment.
Placing this argument in context, this was
right at the end of Appellant’s five-month
probationary period in late 2013.
The WSF
employment specialist Manning had just stated
Appellant could not be fired for all unavailabilities
and comments up to that time. App.-55. Appellant
was therefore sent to the boat LaCroix worked on,
and LaCroix immediately went to work violating
Appellant’s rights.
LaCroix attempted to short Appellant’s pay
and she respectfully challenged the action.
Appellant had heard managers were changing the
pay of junior employees to a lower amount and then
padding that pay as overtime. Ms. Ortloff caught
manager LaCroix attempting to illegally change
her pay. In response, LaCroix harassed Ms. Ortloff
and tried to suggest she was harassing him for
making the request to stop shorting her pay and
return the money improperly withheld, so she
requested an unavailability according to the rules.
App.-80,81. Ms. Ortloff then made a spreadsheet
explaining the pay procedure and gave it to several
junior employees so that the managers could not
change the pay of junior employees and then use
that withheld pay to pad their own overtime. App.81. The spreadsheet is in use to this day. Id.

18
Appellant showed a pattern of managers
shorting the pay of junior employees so they could
pad their pay with double time. App.-63-69,31.
Appellee Trimmer was a part of the scheme to
short the pay of other junior personnel on his
watches and pad his own pay with overtime. Id.
This was a method of secretly padding pay that was
difficult for the WSF accounting department or
State Auditor to detect because it shifted the hours
and double time to the chiefs without a new activity
being generated (unlike the Special Projects
Marable stopped, which created fictitious projects).
The taxpayer was harmed because the pay and
overtime for a chief is much higher, allowing the
chiefs to claim $87 per hour for basic cleaning on
their off time. This violated state law, including
the law adopting the rules of the CBA, and the law
prohibiting the unlawful withholding of the junior
employees’ pay when Trimmer took their hours.
Rev. Code Wash. §§ 47.64.170(7), 49.52.050(2),
App.-26,27,28,31.
By not interpreting Connick to require an
examination of the whole record, the Ninth Circuit
opinion also overlooks the actions of Trimmer who
was involved in the scheme, his harassment of
Appellant, and the adverse e-mails with no
disciplinary charges. Appellant added instructions
to her spreadsheet to stop the withholding of the
pay of other junior employees so the managers
could not pad the pay as overtime. Second, it
overlooks the speech related to the system of poor
record keeping that applied to all employees, but
impacted the junior on-call employees the most.

19
c.
Connick does not require a large
class of persons to be protected, helping
employees resist a pay padding scheme
is protected, and the spreadsheet can be
distinguished from the Connick memo.
The Ninth Circuit suggested Connick
requires a large class of persons before an employee
is protected under the First Amendment. App.-4, n.
1.
It was suggested the handful of junior
employees Appellant helped with their pay does not
amount to the 15 people the Connick memo
involved.
Appellant stated she shared the
spreadsheet with others and appears to be in use
today. App.-81. The shorting Appellant proved
after discovery by Trimmer will also likely prevent
many junior employees from being shorted in the
future. Additional junior employees were helped
when Appellant criticized the Dispatcher’s record
keeping system. App.-63-69.
The Ninth Circuit drew other parallels to the
Connick memo. Appellant’s speech differs from the
employee in Connick, because the speech is not a
questionnaire distributed to challenge how an office
is managed. It opposed illegal shorting of pay. The
spreadsheet was not a questionnaire like in
Connick, but a spreadsheet and explanation for
calculating pay intended to prevent illegal conduct
by state managers.
Therefore, the form and
content were very different from the Connick
questionnaire discussing management methods.
Washington State Law prohibits the
withholding of pay.
Rev. Code Wash. §§
49.52.050(2), 47.64.170, App.-28,31. LaCroix was
clearly violating this standard and he eventually

20
admitted he was violating the CBA by returning
the money. The MEBA union agreement stated
probationary employees had to correct these issues
themselves, because it states they do not have
access to the grievance procedure. App.-32. When
LaCroix harassed Appellant and she requested an
unavailability, the ferry was tied up, so there was
no effect on the boat in requesting a relief. App.-81.
LaCroix apparently sensed trouble and
claimed he was being harassed. App.-57. Since
Manning had said all unavailabilities and all issues
she received notice of prior to November 7, 2013 did
not meet the standard for termination, the
Appellees terminated Appellant for the LaCroixrelated unavailabilities. App.-55.
This is precisely the type of First
Amendment speech we want to protect due to the
history of corruption at the Washington State
Ferries. In Marble v. Nitchman, the Appellant’s
boyfriend was an important witness who identified
widespread pay padding that shows this problem
has persisted for more than 20 years. Marable, 511
F.3d at 924.
In Connick, the Court noted, “The First
Amendment “was fashioned to assure unfettered
interchange of ideas for the bringing about of social
changes desired by the people.” Connick, 461 U.S.
at 145 (citing Roth v. U.S., 354 U.S. 484 (1957),
New York Times Co. v. Sullivan, 376 U.S. 254,269
(1964)).
The Court further stated, “speech
concerning public affairs is more than selfexpression; it is the essence of self-government.”
Id. (citing Garrison v. Louisiana, 379 U.S. 64,74-5
(1964)).

21
The Appellees appear to have abandoned all
of the unavailabilities and all other actions cited for
termination except for this one related to LaCroix
(because their employment specialist stated all
action before the date of this unavailability did not
warrant termination). App.-55. Vonheeder then
used the LaCroix unavailability as a basis for firing
Ortloff. App.-50. The e-mails make it clear Kosa
assisted in the termination and the termination
letter. App.-51,55,56,57,48,49. Griffith was also
on notice of the ongoing violation of Constitutional
rights through the telephone conference with Floyd
McLaughlin. Dist.Ct. dkt. 45, p. 4 (McLaughlin
discussing Griffith telephone call).
In 2014, Appellant’s union determined she
was wrongfully terminated in late 2013 and rehired
her under the CBA. App.-83. Kosa participated in
the blacklisting, and Griffith knew unconstitutional
violations were occurring but failed to act. App.-48.
The blacklisting violated Washington State Law
and prevented Appellant from being dispatched,
causing a constructive discharge. Rev. Code Wash.
§ 49.44.010, App.-26,48. Washington State Courts
have ruled the blacklisting law applies to
employment civil actions. Moore v. Commercial
Aircraft, 278 P.3d 197,203 (Wash. Ct. App. Div. I),
rev. denied, 291 P.3d 254 (Wash. 2012)(quoting
R.C.W. § 49.44.010).
d.
Criticizing an inefficient public
employee record keeping is also
protected by the First Amendment.
The third example of protected speech was
criticism of the employee recordkeeping system

22
that tracked the work assignments and
unavailabilities of junior employees in the
Dispatcher’s Office. As argued above, the Ninth
Circuit overlooked these complaints. Appellant
periodically requested unavailabilities just like the
other probationary on-call oilers. Her requests
were repeatedly lost. App.-53,54,58. This was
another type of harassment, and the inefficient
system prevents us from knowing who was
discarding the notes containing Appellant’s work
assignments and unavailabilities.
Appellant brought this to the attention of the
managers. App.-53,54. Appellant had experience
in modern record keeping, because she worked at
Physio-Control Corporation for almost 30 years.
She therefore suggested a better system of record
keeping, such as a computerized or e-mail system.
Id. The managers immediately suggested she was
committing misconduct by identifying the problem
and suggesting the improvements. App.-52. Kosa
submitted this suggestion by Appellant to Manning
as another reason for termination (and once again,
the Progressive Disciplinary System, the Appellees’
written disciplinary system was not used). App.56,33.
2.
The Ninth Circuit’s adoption of the
District Court’s dismissal of Appellant’s
retaliation claim violates Pickering.
The Ninth Circuit’s opinion on Appellant’s
retaliation claim, appears to violate an important
precedent of this Court. S.Ct.R. 10(c). To prove
First Amendment retaliation, Appellant must prove
she undertook a protected activity; the employer

23
subjected her to an adverse employment action;
and a causal link between her protected activity
and the adverse employment action. Pickering v.
Bd. of Education, 391 U.S. 563,574 (1968),
McGinest v. GTE Serv. Corp., 360 F.3d 1103,1124
(9th Cir. 2004).
To show retaliation protected by the First
Amendment, Appellant must show protected
activity was one of the reasons and but for that
activity, she would not have been fired. Villiarimo
v. Aloha Island Air, Inc., 281 F.3d 1054,1064-65 (9th
Cir. 2002). Causation can be proven with timing
where the activity follows on the heels of protected
activity. The Appellant must prove the Appellees
knew of the protected activity. Cohen v. Fred
Meyer, Inc., 686 F.2d 793,796 (9th Cir. 1982),
Here there are four examples of retaliation.
Three occurred in 2013, and one occurred in 2014.
In 2013, it was suggested Appellant was
committing misconduct by criticizing the poor
record keeping system. App.-52. Appellant was
sent to LaCroix’s boat, likely to be harassed, and
LaCroix attempted to short her pay which violated
the CBA and State Law. CBA, § 29.08, Rev. Code
Wash. §§ 47.64.170(7), 49.52.050(2), App.-25,28,31.
Appellant resisted the illegal pay padding scheme
of the managers who short the pay of junior
employees, then pad that pay as overtime.
Appellant showed Trimmer was also involved in
this same scheme. In retaliation for criticizing
their system of pay padding, LaCroix claimed he
was being harassed, after he attempted to short
Appellant’s pay, and sent an adverse e-mail to
Kosa.
LaCroix harassed Appellant, so she
requested an unavailability. App.-80,81.

24
Vonheeder
then
used
the
LaCroix
unavailability as the basis for firing Appellant,
after
Manning
indicated
all
previous
unavailabilities did not satisfy the CBA’s “bona fide
reason(s) related to the business operation”
requirement for termination. App.-51,75.
This
was retaliation, and but for her speech resisting the
illegal shorting of her pay, she would not have been
terminated.
It has been shown Appellant had 7-10
unavailabilities. App.-85. The Appellees refused to
provide the information on the comparators.
Appellant deposed comparator Dave Hurtt, who
stated he had approximately 13 unavailabilites and
he was not fired.
App.-89-92.
The LaCroix
unavailability request followed the proper
procedure and there was no effect on the ferry since
it was tied up at the time. Appellant was also
brought up on no Code of Conduct charges under
the Appellees’ Progressive Disciplinary Policy.
The third way Appellant was retaliated
against was to be placed on the blacklist. App.-48.
The blacklist violated Washington State Law. Rev.
Code Wash. § 49.44.010, App.-26.
The union
provided their copies of some of the Appellees’
withheld e-mails that show Kosa distributing the
illegal blacklist. App.-48. It should be noted
whistleblower Musselman is also on the blacklist.
In 2014, Appellant was rehired by the union
under the CBA and sent over to the WSF to be
dispatched.
The WSF refused to dispatch
Appellant because she had been placed on the
blacklist. Appellant was therefore constructively
discharged.
Griffith was on notice of the
Constitutional violations occurring but failed to act.

25
Dist.Ct. dkt. 45, p. 4 (McLaughlin discussing
Griffith telephone call). In fact, after she later sent
the 2016 memo criticizing the whistleblowers,
Griffith resigned and left the State of Washington.
3.
The Ninth Circuit misinterpreted
Roberts v. U.S. Jaycees and Pickering v. Board
of Education when ruling on Appellant’s
Association Claims.
The Ninth Circuit stated there was no
protected association with Floyd McLaughlin, then
assumed arguendo that even if other associations
existed, those associations would not be protected.
App.-4, n. 1. This conflicts with Roberts v. U.S.
Jaycees and Pickering v. Board of Education.
S.Ct.R. 10(c), Roberts v. U.S. Jaycees, 468 U.S.
609,618 (1984), Pickering, 391 U.S. at 574.
There are two types of association here.
First there is Freedom of Association for expressive
purposes under Cause of Action Two. Appellant
must show she was a part of a group or identified
as being a part of a group that engaged in a
collective goal or action for expressive purposes,
and membership or perceived membership in the
group was a substantial motivating factor for the
adverse action. Roberts, 468 U.S. at 618.
Appellant coordinated with other junior
employees to prevent the managers from shorting
their pay. LaCroix attempted to short Appellant’s
pay, she resisted the illegal act, was harassed, and
requested an unavailability. Manning stated all
unavailabilities up to then did not satisfy
termination. Vonheeder then terminated Appellant
for this availability (which is double counted as

26
number 20 and 21). App.-75,82. Appellant was
placed on a blacklist and was not dispatched when
she was rehired the next year. App.-48,84.
The second type of association is for personal
relationships under Cause of Action One.
Appellant must show she was perceived to have a
personal relationship and it was a substantial
motivating factor in an adverse action. Roberts,
468 U.S. at 609. Appellant was the girlfriend of
whistleblower McLaughlin. Kosa submitted the
two unavailabilities related to McLaughlin as a
reason to terminate Appellant and these were
included in the Vonheeder list supporting
termination. App.-74,79, Dist.Ct. dkt. 48, p. 78, dkt.
45, p. 4
(Kosa admitted to receiving e-mail
referring to Floyd as Theresa’s “other half”,
McLaughlin
explained
relationship
and
harassment to Griffith).
The comparator was
allowed to be unavailable for reasons related to his
girlfriend but Appellant’s similar unavailabilities
were used to terminate her. App.-89-92. Appellant
showed that once the false entries and double
counting are removed from the list of 21, her 7 to
10 unavailabilities are less than the comparator’s
approximately 13 unavailabilities. App.-76-80.
4.
This Court’s rules governing the
interpretation
of
collective
bargaining
agreements were misinterpreted, causing the
Ninth Circuit to not find a property right in
Appellant’s job.
The Ninth Circuit ruled there was no
property right under the Fourteenth Amendment
because the CBA stated an employee can be

27
terminated for any “bona fide reason(s) related to
the business operation”. App.-4. The Ninth Circuit
cited Allen v. City of Beverly Hills, 911 F.2d
367,371-72 (9th Cir. 1990).
Allen was a California case and that court
stated, “in California … public employment is not
held by contract but by statute ...” Allen, 911 F.2d
at 373.
The present case is a Washington State case
and in Washington, the Legislature authorized the
MEBA union and the State of Washington to
negotiate the terms of a collective bargain
agreement and enter into an agreement. App.-25,
Wash.Rev.Code § 47.64.170. Therefore, we need to
look to the terms of the CBA to interpret the degree
of the property right conferred.
By not analyzing the meaning of the phrase
“bona fide” in the CBA phrase, “bona fide reason(s)
related to the business operation”, the Ninth
Circuit ceded the interpretation to the government
employer. The words “bona fide” created a definite
limit on the employer that qualify as an expectation
of entitlement and protected property interest.
Board of Regents v. Roth, 408 U.S. 564,577 (1972).
The Ninth Circuit’s opinion violates
important precedent of this Court when
interpreting collective bargaining agreements.
S.Ct.R. 10(c). Collective bargaining agreements are
generally governed by federal law and traditional
rules of contract construction apply when not
inconsistent with federal labor law.
See
Transportation-Communication Employees Union
v. Union Pacific R.R., 385 U.S. 157,160-61
(1966)(citation omitted), in which this Court stated;

28
“In order to interpret such an agreement it is
necessary to consider … the practice, usage
and custom pertaining to such agreements.
This is particularly true when the agreement
is resorted to for the purpose of settling
jurisdictional
dispute
over
work
assignments.” Id., 385 U.S. at 161.
Here the phrase, “bona fide reason(s) related
to the business operation” is not defined in the
CBA. We therefore turn to the practice, usage and
custom pertaining to such agreements.
a.
The Appellees’ employment law
specialist designated in the hiring letter
to interpret the rules that applied to
Appellant created a limit on the ability
to terminate and a property right under
the Fourteenth Amendment.
When Appellant received her hiring letter,
Manning was designated in the letter to interpret
the rules that applied to Appellant’s employment.
App.-70. At one point Kosa asked Manning to
evaluate whether the Trimmer e-mails, all
unavailabilities, and all other issues met the
termination standard under the CBA. App.-56.
Manning indicated the unavailabilities and all
other issues did not meet this standard, “… right
now you have nothing.” App.-55. This shows the
wording of the CBA placed a limit on the decision
maker, and a property right.
Second, the Appellees refused to provide the
unavailabilities of the comparators in discovery.

29
The Appellant therefore deposed one of the
comparators
who
had
approximately
13
unavailabilities with two associated with his
girlfriend and he was not terminated. App.-89-92.
Appellant had 7 to 10 unavailabilities, including
two related to her boyfriend, and she was
terminated. App.-82.
The comparator with more unavailabilities
was not fired, which means the practice, usage, and
custom of the phrase “bona fide reason(s) related to
the business operation” placed a limit on the
employer and was an expectation of entitlement
and protected property interest.
b.
The Ninth Circuit’s interpretation
of this Court’s precedent gives an
employee bringing a claim under the
Fourteenth Amendment fewer rights
than similar statutory enactments.
The inconsistency of the Ninth Circuit’s
interpretation can be seen in a comparative study
of other statutes. In other employment statutes
such as the Age Discrimination in Employment Act,
the phrase “bona fide” is used in the phrases: bona
fide occupational qualification, bona fide seniority
system, and bona fide employee benefit plan but it
is not defined. See 29 U.S.C. § 623(f). If we were to
simply say the phrase “bona fide” is not defined in
the statute, and therefore we have to defer to the
employer, there would be no limits on the employer
and it would frustrate the purpose of the statute.
Similarly, if one were to say the CBA’s “bona
fide” requirement means whatever the employer
decides, then the phrase becomes meaningless. It

30
would ignore this Court’s rules for interpreting
collective bargaining agreements.
Employees
bringing a claim under this provision would have
less protection under the Fourteenth Amendment
than they would under statutory enactments using
this phrase such as the Age Discrimination in
Employment Act. Id.
c.
The LaCroix unavailability was
not a bona fide reason related the
business operation and Appellant had
fewer
unavailabilites
than
other
employees who were not terminated.
The LaCroix unavailability can be dealt with
several ways. First, Manning effectively ruled 19
unavailabilities are not a bona fide reason related
to the business operation. App.-55,74. Appellant
later showed at least 11 of the 21 are false or
double counted with documentation. App.-76-80.
The second reason the unavailability related
to the LaCroix harassment is not dispositive is
because the comparator had 13 unavailabilities and
he was not terminated, and Appellant’s 7-10 are
less than 13.
The Appellees withheld the
comparator e-mails to the present day. As the nonmoving party in summary judgment, Appellant is
entitled to a presumption the other comparators
had this number or more unavailabilities.
Anderson, 477 U.S. at 249.
Third, the unavailability related to the
LaCroix harassment (which is double counted) was
needed because LaCroix tried to intimidate
Appellant after she caught him shorting her pay in
violation of the CBA and State Law. Appellant

31
showed how the shorting scheme worked by
showing Appellee Trimmer was engaged in the
same scheme in that he was shorting the time of
junior employees then claiming that time himself.
This allowed him to claim overtime on his chief’s
pay and “clean” on his off time at $87 per hour.
Appellant received approval for the unavailability
related to the LaCroix harassment, albeit on short
notice due to harassment, and there was no effect
on the ferry because it was tied up at the time.
App.-81.
Finally, public policy does not support
finding an unavailability related to resisting an
illegal pay padding scheme, a bona fide reason
related to the business operation.
5.
Having found no property right in her
job, the Ninth Circuit did not discuss
Appellant’s Procedural Due Process claims.
The Ninth Circuit opinion found no property
interest, so it did not discuss Appellant’s
Procedural Due Process claims.
Public employees with a property right in
their job are entitled to a termination hearing that
must give the employee notice of the alleged
disciplinary charges and a right to respond. U.S.
Const., amend. XIV, Cleveland Board of Education
v. Loudermill, 470 U.S. 532,538-39 (1985).
Appellant showed above she had a property right in
her job.
Procedural
Due
Process
requires
a
consideration of the private interest affected, the
risk of an erroneous deprivation, and the probable

32
value of additional safeguards. Mathews v.
Eldridge, 424 U.S. 319,335 (1976).
Here there are two time periods. First, in
late 2013, Appellant was terminated with no
hearing. App.-82. The private interest was great
because she spent 18 months preparing for the job,
which included specialized schooling in another
state and an internship.
The risk of erroneous deprivation was high
because 15 days before, Manning stated on
November 7, 2013 Appellant’s unavailabilities did
not meet the standard for termination, and more
than half were shown to be false or double counted.
App.-55,74. Appellant’s 7-10 unavailabilites were
less than other comparators.
App.-89-92.
Therefore Appellant should not have been
terminated. This means the additional safeguards
would have been valuable with almost no cost other
than a short hearing.
The second Procedural Due Process violation
was the placement of the Appellant on an illegal
blacklist with no notice or opportunity to be heard.
This action should be a prima facie violation of the
Fourteenth Amendment, because it is illegal, and
once on the list, Appellant was not able to get off
the list when she showed her termination was
wrongful. App.-26,48.
The third Procedural Due Process violation
was the 2014 constructive discharge with no notice
or opportunity to be heard. App.-84. The union
decided Appellant had been wrongfully terminated
in 2014, hired her under the CBA, and sent her
name to be dispatched.
Appellant was on the
blacklist so she was not dispatched, so she was
constructively discharged.

33
6.
Appellant’s Substantive Due Process
rights were violated when the termination
was based on false information, and after she
was rehired, a blacklist caused a constructive
discharge.
Substantive due process is violated when
officials act in an arbitrary or capricious manner, or
in a manner that shocks the conscience. U.S.
Const., amend XIV, County of Sacramento v. Lewis,
523 U.S. 833,845-46 (1998), Harrah Independent
School District v. Martin, 440 U.S. 194,198 (1979).
This right includes a right to be "free from
discharge for reasons that are arbitrary and
capricious, or for reasons that are trivial or
unsupported by a basis in fact. Id.
Appellant was terminated without any Code
of Conduct charges being alleged.
The
unavailabilities also contained false statements.
Appellant had fewer unavailabilities compared to
other employees who were not fired, and the only
unavailabilities after the employment specialist
made her ruling related to the LaCroix
harassment. App.-76-80,89-92.
Appellant was then put on a blacklist that
violated state law and caused a constructive
discharge the following year when her union
rehired her.
These facts are arbitrary and
capricious and unsupported by a basis in fact.
County of Sacramento, 523 U.S. at 845-46, Harrah
Independent School District, 440 U.S. at 198. The
blacklist also shocks the conscience.

34
7.
The Ninth Circuit misinterpreted this
Court’s long line of cases that have defined
the Liberty Interest under the Fourteenth
Amendment.
The Ninth Circuit’s opinion decides the
Appellant’s Fourteenth Amendment Liberty
Interest claims in a way that conflicts with
decisions of this Court. S.Ct.R. 10(c), U.S. Const.,
amend XIV.
This Court has ruled public employees have
a Fourteenth Amendment liberty claim under 42
U.S.C. § 1983 against supervisors who make
adverse statements about the employees. Paul v.
Davis, 424 U.S. 963,701,708-10 (1976)(citing Roth,
408 U.S. at 577). The rule in Paul has come to be
known as the "stigma plus" test for establishing
deprivation of liberty based on governmental
defamation and requires a stigmatizing statement,
the accuracy of which is contested, plus the denial
of some more tangible interest or the alteration of a
right or status. Paul, 424 U.S. at 701,711.
a.
The blacklist violated Appellant’s
Fourteenth Amendment Liberty Interest,
because it prevented Appellant from being
dispatched in 2014 after the union rehired
her under the CBA.
The Ninth Circuit applied Hyland v. Wonder,
972 F.2d 1129 (9th Cir. 1992) and found the
blacklist did not severely stigmatize appellant.
App.-4. This misinterprets Paul and Roth, because
it redefines a tangible interest or an alteration of a

35
right, since the blacklist caused the constructive
discharge. Paul, 424 U.S. at 711.
After the Appellant was fired in 2013, she
was put on a blacklist and therefore could never be
hired. The blacklist violates state law. App.-26,48.
Appellant’s union reviewed her case in 2014 and
ruled she had been wrongfully terminated and the
union rehired her under the CBA and sent her
name to the WSF management for dispatching.
App.-83,84. Since Appellant was on a blacklist, and
there was no known procedure for getting a name
off the blacklist, she was not dispatched. Id.
Thus the blacklist prevented Appellant from
being dispatched and caused a constructive
discharge, economic harm, and emotional distress.
b.
The Griffith e-mail leaked to the Press,
was initially circulated internally to all WSF
workers and labeled the whistleblowers
“former disgruntled employees”.
A few months after Appellant filed her case
in the District Court, a group of 50 engine room
chiefs plus a few others attempted an unsupported
pay raise. App.-40. They wanted an unsupported
pay raise as hight as $70,000.
Id.
The
whistleblowers believe the WSF is sinking into debt
so they blew the whistle to KING-5 News.
KING-5 News wrote and broadcast a story
on the proposed raise, showing the pay padding at
the WSF is still a matter of great public concern.
Griffith stated she had a study that supported the
requested pay raises. App.-46. Hours before the
story was aired, Griffith sent an e-mail to all WSF
employees and blamed the criticism on “former

36
disgruntled employees.” Id. KING-5 then proved
Griffith’s study showed the managers were already
being overpaid. App.-36.
The Griffith e-mail violated Appellant’s
Fourteenth Amendment Liberty interests in two
ways. First, internally, it damaged her reputation
and effectively made it impossible for her to get
work with any person or company associated with
those who received the e-mail, because it made her
look like she was stabbing her fellow union
members in the back after being fired.
Combined with the blacklist, the e-mail put a
cloud over Appellant’s loyalty to the union and any
future employer.
Externally, it damaged her
reputation because it was leaked to the Press and
made a part of the later story when Griffith
resigned.
The oiler job Appellant trained for is part of
a larger engine room team in a large engine room.
These engine rooms exist on larger vessels such as
ferries, cargo ships, and cruise ships. Appellant
would have to move to another state to work on a
similarly large ferry, or ship out to other ports on a
larger vessel to use her training. Appellant would
face some of the same union managers and former
ferry managers who received the memo, and thus
her ability to use her training is mostly destroyed.
8.
The Ninth Circuit’s opinion created an
important federal question regarding when
Electronically Stored Information, must be
produced.
The Ninth Circuit affirmed the District
Court rule that a party which has reasonably

37
accessible electronically stored information can
limit the identification and production of the
electronically stored information by requiring
search terms. App.-5. This is an important federal
question that has not been, but should be decided
by this Court. Sup.Ct.R. 10(c).
Under the discovery rules, a Court has the
authority to order discovery or grant a discovery
default. Fed.R.Civ.P. 37(b)(2)(A)(vi), 37(c)(1)(C),
Fair Housing of Marin v. Combs, 285 F.3d 899,90506 (9th Cir.), cert. denied, 123 S.Ct. 536 (2002).
a.
The standard of review for the legal
interpretation of “reasonably accessible” for
electronically stored information should be
de novo.
Generally, the standard of review for an
order denying a motion for a discovery default and
denying in part a motion to compel discovery is
abuse of discretion. Fair Housing of Marin, 285
F.3d at 905. Where discovery sanctions relate to
the resolution of a legal issue, the review is de
novo. Palmer v. Pioneer Inn, 338 F.3d 981,985 (9th
Cir. 2003). The Ninth Circuit appears to have only
applied the abuse of discretion standard. App.-5.
The standard for interpreting the legal definition of
“reasonably
accessible”
as
it
relates
to
electronically stored information under Federal
Rules of Civil Procedure 26(b)(2)(B), 33(a)(1), and
34(a)(1)(A) should be de novo. Palmer, 338 F.3d at
985.

38
b.
After a party locates and reads
responsive e-mails, they are “reasonably
accessible” for interrogatories and requests
for production under an objective test, and
the party can not limit or condition
production on search terms.
The issue is whether a party can limit or
condition the identification and production of emails under Rule 34(a)(1)(A), on the requesting
party guessing what words are in the e-mails with
search terms, where the party resisting production
has shown the e-mails are reasonably accessible by
locating, reading, and collating the e-mails.
Federal Rule of Civil Procedure 26(b)(1)
states in part: “… Parties may obtain discovery
regarding any nonprivileged matter that is relevant
to any party's claim or defense and proportional to
the needs of the case …” Fed.R.Civ.P. 26(b)(1).
The party resisting production has the
burden to show the e-mails are not reasonably
accessible because of undue burden or cost.
Fed.R.Civ.P. 26(b)(2)(B). A party is not required to
provide electronically stored information if the
information is not reasonably accessible because of
undue burden or cost. Id. This test should be an
objective one. The 2006 Advisory Committee Notes
on Rule 26(b)(2)(B) state a party, “should produce
electronically stored information that is relevant,
not privileged, and reasonably accessible.”
Fed.R.Civ.P. 26(b)(2)(B) advisory committee’s note
(2006).
Later in the notes, the Advisory Committee
again states there is a precondition of finding
information not reasonably accessible before a

39
party can limit the production of the information;
“If the parties cannot agree whether, or on what
terms, sources identified as not reasonably
accessible …” Id. It is only after the electronic
information is determined to be reasonably
inaccessible that search terms are required. Id.
The Advisory Committee’s approach is
common sense, because requiring an Appellant to
guess what words were in the Appellees’ e-mails
related to Appellant, which the Appellees already
read and were using to prepare their defense would
make the discovery rules largely meaningless.
Since the Appellees read the e-mails, it would have
taken 30 seconds to drag them onto a thumb drive.
Dist.Ct. dkt. 23, p. 57.
Requiring the Appellees to provide the emails related to the Appellant they read and were
using to prepare their case is consistent with the
Chief Justice’s commentary on proportionality and
the needs of the case, and the purpose of the rules
to be just, speedy, and inexpensive. Fed.R.Civ.P. 1,
Chief Justice John Roberts, “2015 Year-End Report
on the Federal Judiciary,” December 31, 2015, p. 5.
After realizing they could not reasonably
claim the e-mails they were using were
inaccessible, Appellees stated they might want to
redact the e-mails, without citing a valid privilege
as required by the interrogatory instructions.
App.73.
During a discovery conference, the Appellees
started citing statistics gleaned from the withheld
e-mails, which shows they had read the e-mails in
great detail and collated the information. Dist.Ct.
dkt. 23, pp. 57.

40
c.
The union copies of Appellees’ smoking
gun e-mails show the motive for the
withholding, and the Appellees continue to
withhold e-mails and other documents.
Smoking gun e-mails identify the motive for
withholding e-mails in this case. The union was
following this case and noticed key documents
related to the blacklist, or blacklists, had not
become a part of the case. Therefore, a few weeks
before the end of discovery, the union provided
their copies of some of Appellees’ e-mails to the
Appellees. One of the union officials who had
copies of the e-mails was set to testify in
Appellant’s case. The Appellees then gave those emails to Appellant on or about the last day of
discovery. App.-48,49. The e-mails show Kosa
distributing one of the blacklists that contained
Appellant’s name.
Id.
Many other e-mails
continue to be withheld.
I. CONCLUSION
The Appellant requests the Court grant the
petition for a writ of certiorari. The Court should
reverse the Ninth Circuit’s decision upholding the
District Court’s Order granting Summary
Judgment, reinstate Appellant’s claims, and
remand the case for trial. To the extent the Court
addresses the discovery issues, the Court should
order the production of the withheld discovery
related to the Appellant and the comparators.

41
Dated this 19th day of November, 2019.
Respectfully Submitted,
HART LAW OFFICE PLLC
/s/ Shawn Hart
__________________________
SHAWN HART, WSBA# 25917
P.O. Box 85342
Seattle, WA 98145
(206) 612-1809
E-mail: HartLawOffice@aol.com
COUNSEL FOR THE PETITIONER

APPENDIX

App. 1
FILED
August 23, 2019
MOLLY C. DWYER, CLERK
US COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THERESA ORTLOFF, former
Employee of the Washington
State Ferries and a single
woman
Plaintiff-Appellant,
v.
DAVE TRIMMER, Chief of the
Washington State Ferries,
et al.,
Defendants-Appellees.

No. 18-35538
D.C. No. 2:16-cv01257-RSL
Western District of
Washington,
Seattle
ORDER

Before: BOGGS,* BERZON, and WATFORD, Circuit
Judges.
Judge Berzon and Judge Watford have voted
to deny the petition for rehearing en banc, and Judge
Boggs has so recommended.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35.
The petition for rehearing en banc is denied.
__________________
*
The Honorable Danny J. Boggs, United
States Circuit Judge for the U.S. Court of Appeals for
the Sixth Circuit, sitting by designation.

App. 2

773 Fed.Appx. 903 (Mem)
This case was not selected for publication in West's
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S. Ct. of App. 9th Cir.
Rule 36-3.
United States Court of Appeals, Ninth Circuit.
Theresa ORTLOFF, former employee of the
Washington State Ferries and a single woman,
Plaintiff-Appellant,
v.
Dave TRIMMER, Chief of the Washington State
Ferries; et al., Defendants-Appellees.
No. 18-35538
Submitted July 12, 2019* Seattle, Washington
FILED July 18, 2019
Attorneys and Law Firms
Shawn Hart, Esquire, Attorney, Hart Law Office
PLLC, Seattle, WA, for Plaintiff - Appellant
Scott M. Barbara, Newell D. Smith, Assistant
Attorney Generals, AGWA - Office of the Washington
Attorney General, Seattle, WA, for Defendants –
Appellees
Appeal from the United States District Court for the
Western District of Washington, Robert S. Lasnik,
District Judge, Presiding, D.C. No. 2:16-cv-01257RSL

App. 3
Before: BOGGS,** BERZON, and WATFORD,
Circuit Judges.
MEMORANDUM***
*
The panel unanimously concludes this
case is suitable for decision without oral argument.
See Fed. R. App. P. 34(a)(2).
**
The Honorable Danny J. Boggs, United
States Circuit Judge for the U.S. Court of Appeals for
the Sixth Circuit, sitting by designation.
***
This disposition is not appropriate for
publication and is not precedent except as provided
by Ninth Circuit Rule 36-6.
Theresa Ortloff sued several Washington State
Ferries officials after she was discharged from her job
as a probationary on-call oiler for the State Ferries.
She alleges that she was discharged on account of
First Amendment protected behavior and that her
Fourteenth Amendment due-process rights were
violated. The district court granted summary
judgment to the State Ferries officials. We affirm.
1.
The district court properly granted
summary judgment on Ortloff’s First Amendment
claims. Ortloff did not submit evidence that would
allow a reasonable juror to conclude that the asserted
First Amendment protected activity was a
substantial factor in her discharge. See Eng v.
Cooley, 552 F.3d 1062, 1071 (9th Cir. 2009). First,
nothing in the record indicates that Ortloff’s
discharge was connected to any expressive
association with Floyd McLaughlin. Second, the
record also does not contain any facts connecting

App. 4
Ortloff’s discharge to championing the rights of
probationary employees generally.1
2.
The district court also properly awarded
summary judgment to the State Ferries officials on
Ortloff’s Fourteenth Amendment claims. Under the
collective-bargaining agreement governing Ortloff’s
employment,
the
State
Ferries
could
discharge *904 her for any “bona fide reason(s)
relating to the business operation.” Employees who
can be discharged for any bona fide reason lack a
property interest in their employment. See Allen v.
City of Beverly Hills, 911 F.2d 367, 371–72 (9th Cir.
1990).
Nor can Ortloff make out a Fourteenth
Amendment claim based on either the State Ferries’
decision to place her on a do-not-hire list, or the
reference in a press release to certain “disgruntled
former employees.” Fourteenth Amendment dueprocess protections based on government defamation
are triggered only when a person is “severely
stigmatize[d]” by the government statement. Hyland
v. Wonder, 972 F.2d 1129, 1141 (9th Cir. 1992). There
is no evidence that Ortloff’s inclusion on a single
employer’s
do-not-hire
list
was
“genuinely
debilitating,”
as
she
could
obtain
jobs
elsewhere. Id. Nor does the record, viewed favorably
to Ortloff, support the conclusion that any member of
the public would interpret the press release
mentioning “disgruntled former employees” as

Even if there were such a connection, it is
questionable whether the First Amendment would
protect Ortloff from discharge on that account. See
Connick v. Myers, 461 U.S. 138, 146 (1983).
1

App. 5
referring to Ortloff, or that any such interpretation, if
it occurred, would be severely stigmatizing.
3.
The district court did not abuse its
discretion in denying Ortloff’s motion for default
judgment, based on asserted misconduct by the State
Ferries officials during discovery. The district court
reasonably concluded that the discovery dispute
between the parties was the product of unreasonable
behavior on both sides, and that even though the
defendants were in part to blame for the impasse,
their conduct was not the type of “extreme
circumstance[ ]” that would warrant issuing a default
judgment. United States ex rel. Wiltec Guam, Inc. v.
Kahaluu Const. Co., 857 F.2d 600, 603 (9th Cir.
1988).
AFFIRMED.

App. 6
United States District Court
WESTERN DISTRICT OF WASHINGTON
THERESA ORTLOFF,
v.
DAVE TRIMMER

JUDGMENT IN A CIVIL
CASE
CASE NUMBER:
C16-1257RSL

___
Jury Verdict. This action came before the
Court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
X
Decision by Court.
This action to
consideration before the Court. The issues have been
considered and a decision has been rendered.
THE COURT HAS ORDERED THAT
Judgment is entered in favor of defendants
against plaintiff.
May 30, 2018

William M. McCool
Clerk
/s/ Kerry Simonds
By, Deputy Clerk

App. 7
2018 WL 2411755
United States District Court, W.D. Washington,
at Seattle.
Theresa ORTLOFF, Plaintiff,
v.
Dave TRIMMER, et al., Defendants.
Case No. C16-1257RSL
Signed 05/29/2018
Attorneys and Law Firms
Shawn G. Hart, Seattle, WA, for Plaintiff.
Newell David Smith, Scott M. Barbara, Attorney
General of Washington, Seattle, WA, for Defendants.
ORDER GRANTING MOTION FOR SUMMARY
JUDGMENT
Robert S. Lasnik, United States District Judge
*1
This matter comes before the Court on
“Defendants' Motion for Summary Judgment.” Dkt. #
36. The Court has reviewed the parties' memoranda,
declarations, exhibits, and the remainder of the
record. 1 For the following reasons, the motion is
GRANTED.

The Court concludes the motion can be decided on
the papers submitted. Plaintiff’s request for oral
argument is denied.
1

App. 8
I. BACKGROUND
In this civil rights case, plaintiff Theresa
Ortloff claims that her constitutional rights were
violated when she was terminated from her job as an
oiler with the Washington State Ferries (WSF).
Plaintiff started with WSF in July 2013, after
being hired as an “on call” oiler under a probationary
employment arrangement. Probationary employment
is a way for employers to evaluate employees during
a trial period in order to gauge the employee’s job
performance before permanent employment is
granted. The terms of plaintiff’s employment were
governed by a Collective Bargaining Agreement
(CBA), the relevant portion of which provides:
Newly hired employees shall serve a
probationary period of five (5) calendar
months. The employee may be terminated
during the probationary period or at the end of
a probationary period for a bona fide reason(s)
relating to the business operation and said
employee shall not have recourse through the
grievance procedure.
Dkt. # 38-1 at 3.
Plaintiff claims she was mistreated and
eventually terminated because she advocated for
probationary employees and because she was dating
Floyd McLaughlin, a WSF engineer who previously
testified in a widely publicized whistleblower case
against the agency. She relies on a number of
interactions and email conversations as evidence of
mistreatment, abuse, and retaliation.

App. 9
In August 2013, plaintiff had a negative
interaction with defendant David Trimmer, the Chief
Engineer aboard the ferry Chelan. Afterward,
Trimmer wrote an email to the oiler dispatcher and
to defendant Elizabeth Kosa, the Senior Port
Engineer and one of plaintiff’s supervisors. In it, he
asked that plaintiff not be assigned to the Chelan
again because she lacked “a basic level of
understanding of ship board systems and
operations.” Dkt. # 38-1 at 6. He followed up in that
email conversation by listing in detail plaintiff’s
shortcomings and the reasons he did not want her
assigned to his vessel again. Dkt. # 38-1 at 5.
Plaintiff also had a dispute with Chief Staff
Engineer Michael LaCroix, who is not a defendant,
over the proper pay code for what appears to be one
hour of work in November 2013. See Dkt. # 38-1 at
14–16 (Ortloff-LaCroix email exchange); Dkt. # 49-2
at 12 (timesheet). Days later, plaintiff called and
cancelled her shift aboard the ferry Kennewick
because LaCroix would also be working aboard. Her
last-minute cancellation drew a complaint from the
vessel’s captain. Dkt. # 38-1 at 8–9.
Plaintiff
had
difficulties
with
other
cancellations and unavailabilities, which were of
concern because the on-call nature of her position
required that she be available in case dispatch
needed to bring her in. In particular, the dispatcher
discussed with plaintiff that she called in as
unavailable because she was driving McLaughlin to
the airport. Dkt. # 37-1 at 30.

App. 10

*2
Eventually, the complaints about plaintiff’s
work performance and unavailability during her
probationary period led management to decide she
should be terminated. Plaintiff was terminated in a
letter dated November 22, 2013, and sent by
defendant Steven Vonheeder, Director of Vessels.
The letter read in relevant part:
I have determined your performance and
commitment to Washington State Ferries
during your probation period does not meet
expectations of an On-Call employee by being
available for work at all times. On too many
occasions you have been called to be
dispatched and assignments have been refused
or negotiated for a variety of reasons.
Dkt. # 41-1 at 2.
In 2014, plaintiff again sought to be hired as
an oiler but was unsuccessful. Plaintiff later learned
that her name appeared on a “Do Not Hire” list—a
list of individuals management had decided not to
hire again in the future. See Dkt. # 48 at 163.
Plaintiff filed a complaint under 42 U.S.C. §
1983, alleging that her negative interactions and
eventual termination were done in retaliation for
constitutionally protected conduct. In particular, she
claims that she suffered mistreatment and
termination because she was associated with and
supported McLaughlin. She claims this engendered
animus and hostility against her because of his role
in the years-old whistleblower case, which upset

App. 11
people within WSF. She also claims that her pay
dispute with LaCroix amounted to advocacy for the
rights of probationary employees, and that her
mistreatment and termination were in retaliation for
that advocacy. After discovery, defendants moved for
summary judgment. Dkt. # 36.
II. DISCUSSION
Summary judgment is appropriate “if the
pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). The party seeking summary judgment
“bears the initial responsibility of informing the
district court of the basis for its motion.” Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). Once the
moving party has satisfied its burden, it is entitled to
summary judgment if the nonmoving party fails to
designate “specific facts showing that there is a
genuine issue for trial.” Id. at 324. The Court will
“view the evidence in the light most favorable to the
nonmoving party ... and draw all reasonable
inferences in that party’s favor,” Krechman v. Cty. of
Riverside, 723 F.3d 1104, 1109 (9th Cir. 2013), but a
“summary judgment motion cannot be defeated by
relying solely on conclusory allegations unsupported
by factual data,” Taylor v. List, 880 F.2d 1040, 1045
(9th Cir. 1989).
A.

First Amendment Claims

In causes of action one, two, three, and seven,
plaintiff claims she was punished in retaliation for

App. 12
conduct protected by the First Amendment. Her
claims allege that she was terminated, harassed, and
precluded from being rehired because she advocated
on behalf of probationary oilers and because of her
association with McLaughlin.
To prevail on her claims, she “must prove (1)
that the conduct at issue is constitutionally
protected, and (2) that it was a substantial or
motivating factor in the punishment.” Settlegoode v.
Portland Pub. Sch., 371 F.3d 503, 510 (9th Cir. 2004).
Assuming
plaintiff’s
association
with
McLaughlin or her purported advocacy amounted to
protected conduct, 2 the record does not support a
reasonable inference that either was a substantial or
motivating factor for punishment. She alleges she
was punished in the form of harassment, false
statements, termination of her probationary
employment, and WSF’s refusal to rehire her. For
defendant Trimmer, she points to their interaction
aboard the Chelan and to the emails asking that she
not be assigned there in the future. Plaintiff’s
characterizations of the interaction and emails strain
The parties do not engage whether plaintiff can
survive summary judgment on the element of
protected conduct, but the Court has its own doubts.
Plaintiff does not cite any cases, nor is the Court
aware of any, that hold “association for expressive
purposes,” Dkt. # 68 at 16–18, can serve as the basis
for a cognizable First Amendment claim. As for her
advocacy, there is tenuous support in the record
whether the grievances she raised with superiors
were on a matter of public concern or expressed in
her capacity as a private citizen. See Eng v. Cooley,
552 F.3d 1062, 1070 (9th Cir. 2009).
2

App. 13
reasonableness based on the record,33 but even if the
record supported her assertions that he harassed her,
spied on her, or spread false statements about her,
nothing in the record connects those alleged bad acts
to protected conduct. She homes in on a portion of his
email that says, “She should not have an Oilers
endorsement. I know how she got it but she shouldn't
have it.” Dkt. # 49-1 at 9. Plaintiff argues that refers
to her relationship with McLaughlin. Trimmer gave a
different interpretation in his deposition,4 but even
plaintiff’s interpretation does not reasonably give rise
to an inference that McLaughlin’s previous testimony
or plaintiff’s advocacy were substantial or motivating

For example, plaintiff states Trimmer was “spying”
on her and “secretly observing” her while she worked,
Dkt. # 2, 14, but the record cites supporting those
characterizations—which refer to plaintiff’s own
affidavit—mention nothing of spying or secretive
observation, see Dkt. # 49 ¶ 11. She describes
Trimmer’s email as “abusive,” Dkt. # 44 at 2, when it
mostly reads like a run-of-the-mill complaint about
work performance, Dkt. # 49-1 at 9–10. Finally, she
asserts that his email “associated the adjective
‘stupid’ with Ms. Ortloff,” Dkt. # 44 at 2, when the
email actually said, “Generally speaking, I do not
believe she is a stupid person,” Dkt. # 49-1 at 9
(emphasis added).
4 In his deposition, Trimmer explained his statement
as meaning “she got her credentialing, her oilers
endorsement, by going to some short-term school for
a month or two, and then serving a limited
internship on a Washington State Ferry vessel.” Dkt.
# 48 at 31.
3

App. 14
factors for her treatment. See Settlegoode, 371 F.3d
at 510.
*3
Plaintiff also claims retaliation stemming from
the pay dispute with LaCroix. The record does not
support a reasonable inference that constitutionally
protected conduct was a substantial or motivating
factor of any retaliation that might be inferred from
that dispute. See id.
Finally, plaintiff makes much of the number of
times WSF recorded her as unavailable. One of
defendants' interrogatory responses reflects twentyone unavailabilities, but plaintiff makes the case that
she was only unavailable ten times. She cites this as
evidence that she was fired on pretext. Even were
plaintiff correct about the unavailability discrepancy,
the record does not suggest it would have made a
difference.
Instead,
the
issue
with
her
unavailabilities was that she alerted dispatch at the
eleventh hour and was at times unavailable for
illegitimate reasons. The apparent discrepancy
plaintiff emphasizes is not evidence of pretextual
firing or retaliation.
The record simply does not support a
reasonable inference that protected conduct was a
motivating factor, much less a substantial one, for
any of the alleged harassment, mistreatment, or
decisions to terminate and not rehire her. Instead,
the record suggests the defendants resolved that her
performance was not adequate to be kept on after her
probationary period and that her performance and
interpersonal conflicts also made her unsuitable for
hiring a second time. For these reasons, the Court
concludes that summary judgment in favor of
defendants is appropriate on causes of action one,
two, three, and seven.

App. 15
B. Due Process Claims
Plaintiff’s remaining claims allege violations of
plaintiff’s rights to procedural and substantive due
process. “A threshold requirement to a substantive or
procedural due process claim is the plaintiff’s
showing of a liberty or property interest protected by
the Constitution.” Wedges/Ledges of California, Inc.
v. City of Phoenix, 24 F.3d 56, 62 (9th Cir. 1994).
Plaintiff claims she was deprived of both a property
interest in continued probationary employment and a
liberty interest in her reputation, business, and
employment opportunities.
1.

Property Interest

To make out a due process claim based on a
constitutionally protected property interest, plaintiff
must show she had a legitimate claim of entitlement
to continued probationary employment and not
merely “an abstract need or desire” or “unilateral
expectation of it.” Bd. of Regents of State Colleges v.
Roth, 408 U.S. 564, 577 (1972). “[T]he existence and
dimensions of [claimed property interests] ‘are
defined by existing rules or understandings that stem
from an independent source such as state law.’ ”
McGraw v. City of Huntington Beach, 882 F.2d 384,
389 (9th Cir. 1989) (quoting Roth, 408 U.S. at 577).
Washington law generally provides that state
employees serving under a probationary employment
arrangement have no constitutionally protected
property interest in continued employment. State ex
rel. Swartout v. Civil Serv. Comm'n of City of
Spokane, 25 Wn.App. 174, 182 (1980). That finds

App. 16
support in the CBA’s text, which explicitly provides
that probationary employees may be terminated
during the probationary period without recourse to
any grievance procedures. See Dkt. # 38-1 at 3.
Plaintiff argues that the CBA creates a
property interest because it provides that
probationary employees may be terminated “for a
bona fide reason(s) relating to the business
operation.” Id. Ninth Circuit precedent makes clear
that where the only substantive restrictions on
government decisionmaking are “reasonableness” or
“good faith,” it does not give rise to a constitutionally
protected property interest. Allen v. City of Beverly
Hills, 911 F.2d 367, 371 (9th Cir. 1990); Jacobson v.
Hannifin, 627 F.2d 177, 180 (9th Cir. 1980). Whatever
constraints the CBA’s “bona fide reason(s)” language
places on the termination of probationary employees,
it does not create for plaintiff a property interest
sufficient to support a due process claim. See id. For
that reason, the Court concludes summary judgment
for the defendants is warranted on causes of action
four and five.
2.

Liberty Interest

*4
Plaintiff also brings a due process claim based
on the deprivation of a constitutionally protected
liberty interest. The liberty interest protected by the
Fourteenth Amendment extends to a person’s right to
engage in the common occupations of life. Hyland v.
Wonder, 972 F.2d 1129, 1141 (9th Cir. 1992).
Termination of public employment may implicate
that interest if the government “so severely
stigmatize[s] the employee that she cannot avail
herself of other employment opportunities.” Id. The

App. 17
stigma must be “severe and genuinely debilitating” so
as to prevent her from taking advantage of other
employment opportunities. Id. Assertions of general
workplace “incompetence or inability to get along
with others,” however, do not implicate a protected
liberty interest. Wheaton v. Webb-Petett, 931 F.2d
613, 617 (9th Cir. 1991). In addition, “[u]npublicized
accusations do not infringe constitutional liberty
interests,” Bollow v. Fed. Reserve Bank of San
Francisco, 650 F.2d 1093, 1101 (9th Cir. 1981), and
the lost business or employment prospects must
extend beyond a specific employer, Llamas v. Butte
Cmty. Coll. Dist., 238 F.3d 1123, 1128 (9th Cir. 2001),
as amended (Mar. 14, 2001); see id. (“We have
consistently held that people do not have liberty
interests in a specific employer.”).
Here, plaintiff cannot show the existence of a
constitutionally protected liberty interest. None of
the allegedly stigmatizing statements was made
publicly. 5 See Bollow, 650 F.2d at 1101. The
statements in plaintiff’s termination letter were not
“severe and debilitating,” Hyland, 972 F.2d at 1141,
and instead appear limited to statements of poor
workplace performance, see Wheaton, 931 F.2d at
617.
Any impairment of future employment
prospects resulting from her termination or from the
Defendant Lynne Griffith’s 2016 email addressing a
media report about wasteful WSF spending, Dkt. #
49-2 at 39, could not even conceivably amount to a
publicly stigmatizing statement. It was written years
after this case’s relevant events, it mentions
“disgruntled former employees” with no suggestion
that those employees include plaintiff, and it has no
other plausible connection to plaintiff.
5

App. 18
refusal to hire her again was limited to WSF.
Plaintiff “remained free to obtain employment ... with
any other employer,” Cafeteria & Restaurant Workers
Union, Local 473 v. McElroy, 367 U.S. 886, 896
(1961), and WSF was not constitutionally obligated to
consider hiring someone it had already terminated
once.
The Court concludes that plaintiff has not
sufficiently shown a liberty interest adequate to
support a due process claim, and that summary
judgment for the defendants is warranted on cause of
action six.
III. CONCLUSION
For the foregoing reasons, 6 the Court
concludes that viewing all the evidence in the light
most favorable to plaintiff and drawing all
reasonable inferences in her favor, there is no
genuine issue of material fact and defendants are
entitled to judgment as a matter of law. Defendants'
motion for summary judgment, Dkt. # 36, is
GRANTED. The Clerk of Court is directed to enter
judgment in favor of defendants and against plaintiff.

Defendants additionally argue that they are
entitled to qualified immunity, because plaintiff
cannot show violations of a clearly established
statutory or constitutional right. See Pearson v.
Callahan, 555 U.S. 223, 231 (2009). The Court need
not address those arguments given the Court’s
conclusion that summary judgment is warranted on
the underlying claims.

6

App. 19
Not Reported in Fed. Supp., 2018 WL 2411755, 2018
IER Cases 189,541

App. 20

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
THERESA ORTLOFF,
v.

Plaintiff,

DAVE TRIMMER, A Chief of
the Washington State Ferries,
et al.,
Defendants.

No. C16-1257RSL
ORDER ON
PLAINTIFF’S
MOTION FOR
DISCOVERY
DEFAULT OR TO
COMPEL
DISCOVERY
RESPONSES

This matter comes before the Court on
plaintiff’s “Motion for Discovery Default or to Compel
Discovery.” Dkt. # 22. Plaintiff seeks an order
compelling defendants to produce several thousand
emails that defendants mentioned in response to
plaintiff’s interrogatories. Having reviewed the
memoranda, declarations, and exhibits submitted by
the parties, the Court finds as follows.
In this lawsuit, plaintiff sues her former
employer, the Washington State Ferries (WSF), as
well as various other WSF employees, for several
alleged violations of her constitutional rights,
harassment, and retaliation. Plaintiff seeks an order
requiring defendants to produce all emails in their
possession “related to” plaintiff herself, as well as all

App. 21
emails “related to” six comparator employees.
Defendants have indicated that they are willing to
produce emails generated by running searches for the
seven names in question, but ask plaintiff to provide
additional search terms so that they might limit the
total number of responsive emails to those that are
relevant to this case. Moreover, defendants have by
now produced an additional batch of emails “related
to” plaintiff herself. Dkt. # 28 at 7. Plaintiff still
seeks production of the “comparator” emails, as well
as emails “related to” plaintiff from the email
accounts of other WSF employees, and argues that
defendants’ unwillingness to produce all responsive
emails is evidence of bad faith.
You don’t need a weatherman To know which
way the wind blows. Bob Dylan Subterranean
Homesick Blues © Columbia Records 1965
The ill winds that have blown this discovery
dispute into this courtroom are a product of an
outrageous posture by plaintiff’s lawyer (seeking a
default judgment of $900,000 for a minor discovery
dispute where the primary cause is his own failure to
communicate with opposing counsel) and an overly
restricted response perspective by the State’s lawyer,
who must have a better idea of what relevant
documents plaintiff is entitled to even without the
benefit of agreed “search terms.” The Court is
extremely disappointed in the fact that this motion
was filed, and the parties must do a better job of
meeting face-to-face and working through future
problems related to discovery.
Under the Federal Rules of Civil Procedure,
parties may generally obtain discovery regarding any

App. 22
non-privileged matter that is relevant to any party’s
claim or defense and proportional to the needs of the
case. Information need not be admissible at trial to
be discoverable. Fed. R. Civ. P. 26(b)(1). During
discovery, parties must, without awaiting a discovery
request, provide to the other parties a set of initial
disclosures, including copies or descriptions of all
documents, electronically stored information, and
tangible things that the disclosing party has in its
possession or control and that the disclosing party
may use to support its claims or defenses, Fed. R.
Civ. P. 26(a)(1)(A)(ii). Additionally, a party may
request the production of certain documents in the
other party’s control; the party served with such
requests for production must comply within 30 days.
Fed. R. Civ. P. 34(b)(2)(A). The party seeking
discovery may move for an order compelling
disclosure or discovery after good-faith attempts to
obtain compliance without court action have been
unsuccessful. Fed. R. Civ. P. 37(a)(1).
Though plaintiff requests entry of default
against the defendants as a discovery sanction, the
Court concludes that default would be a
disproportionately harsh penalty in the context of
this relatively minor discovery dispute, where –
contrary to plaintiff’s hyperbolic assertions – there
does not appear to be any evidence of willfulness or
bad faith. See Fair Housing of Marin v. Combs, 285
F.3d 899, 905 (9th Cir. 2002) (“In the Ninth Circuit,
[default] sanctions are appropriate only in ‘extreme
circumstances’ and where the violation is ‘due to
willfulness, bad faith, or fault of the party.’”
(citations omitted)).
Rather, the dispute here appears to result
from the parties’ failure to cooperate. Plaintiff’s

App. 23
attorney was wrong to resist defendants’ good-faith
effort to provide relevant discovery by refusing the
request for additional search terms. Such resistance
ultimately creates more work for everyone, including
the Court. In addition, the State knows enough about
the allegations here to figure out what plaintiff
needs: any emails from or to any of the WSF
defendants mentioning the plaintiff, plus anything
mentioning the comparator employees in the context
of their refusing work assignments or showing a lack
of mechanical aptitude during their probationary
periods.
For all of the foregoing reasons, plaintiffs’
motion to compel discovery responses (Dkt. # 22) is
GRANTED in part. The parties are directed to meet
and confer to establish additional search terms that
will assist defendants in narrowing the universe of
responsive emails to those that are truly relevant to
this litigation. This conference shall take place no
later than seven days from the date of this order.
Once additional search terms have been designated,
defendants shall produce the narrowed batch of
responsive emails no later than Friday, June 16,
2017. To the extent privacy concerns remain, the
parties are encouraged to consider a stipulated
protective order limiting the use of discovery
materials to this litigation.
DATED this 5th day of June, 2017.
(Signed)
_________________________
Robert S. Lasnik
United States District Judge

App. 24
42 U.S.C. § 1983
Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a
judicial officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.

App. 25
Rev. Code Wash. § 47.64.170
Collective bargaining procedures
…
(2) A ferry employee organization or organizations
and the governor may each designate any individual
as its representative to engage in collective
bargaining negotiations.
…
(7) It is the intent of this section that the collective
bargaining agreement or arbitrator's award shall
commence on July 1st of each odd-numbered year
and shall terminate on June 30th of the next oddnumbered year … . After the expiration date of a
collective bargaining agreement negotiated under
this chapter, except to the extent provided in
subsection (11) of this section and RCW 47.64.270(4),
all of the terms and conditions specified in the
collective bargaining agreement remain in effect
until the effective date of a subsequently negotiated
agreement, not to exceed one year from the
expiration date stated in the agreement. Thereafter,
the employer may unilaterally implement according
to law.
…

App. 26
Rev. Code Wash. § 49.44.010
Blacklisting - Penalty
Every person in this state who shall wilfully and
maliciously, send or deliver, or make or cause to be
made, for the purpose of being delivered or sent or
part with the possession of any paper, letter or
writing, with or without name signed thereto, or
signed with a fictitious name, or with any letter,
mark or other designation, or publish or cause to be
published any statement for the purpose of
preventing any other person from obtaining
employment in this state or elsewhere, and every
person who shall wilfully and maliciously "blacklist"
or cause to be "blacklisted" any person or persons, by
writing, printing or publishing, or causing the same
to be done, the name, or mark, or designation
representing the name of any person in any paper,
pamphlet, circular or book, together with any
statement concerning persons so named, or publish
or cause to be published that any person is a member
of any secret organization, for the purpose of
preventing such person from securing employment,
or who shall wilfully and maliciously make or issue
any statement or paper that will tend to influence or
prejudice the mind of any employer against the
person of such person seeking employment, or any
person who shall do any of the things mentioned in
this section for the purpose of causing the discharge
of any person employed by any railroad or other
company, corporation, individual or individuals,
shall, on conviction thereof, be adjudged guilty of
misdemeanor and punished by a fine of not less than

App. 27
one hundred dollars nor more than one thousand
dollars, or by imprisonment in the county jail for not
less than ninety days nor more than three hundred
sixty-four days, or by both such fine and
imprisonment.

App. 28
Rev. Code Wash. § 49.52.050(2)
Rebates of wages - False Records - Penalty
Any employer or officer, vice principal or agent of any
employer, whether said employer be in private
business or an elected public official, who
…
(2) Willfully and with intent to deprive the employee
of any part of his or her wages, shall pay any
employee a lower wage than the wage such employer
is obligated to pay such employee by any statute,
ordinance, or contract; or
…
Shall be guilty of a misdemeanor.

App. 29
46 C.F.R. § 15.405
Familiarity with vessel characteristics.
Each credentialed crewmember must become
familiar with the relevant characteristics of the
vessel appropriate to his or her duties and
responsibilities prior to assuming those duties and
responsibilities. As appropriate, these may include,
but are not limited to, general arrangement of the
vessel, maneuvering characteristics, proper operation
of the installed navigation equipment, proper
operation of firefighting and lifesaving equipment,
stability and loading characteristics, emergency
duties, and main propulsion and auxiliary
machinery, including steering gear systems and
controls.

App. 30
46 C.F.R. § 199.180(b)(1)
199.180. Training and drills.
(1) Every crewmember with emergency duties
assigned on the muster list must be familiar with
their assigned duties before the voyage begins.

App. 31
29.08 Licensed officers assigned to vessels in a
licensed capacity shall not perform work normally
assigned to unlicensed personnel except in case of
emergency.

App. 32
33.01 Newly hired employees shall serve a
probationary period of five (5) calendar months. The
employee may be terminated during the probationary
period or at the end of a probationary period for a
bona fide reason(s) relating to the business operation
and said employee shall not have recourse through
the grievance procedure.

App. 33
(WSF Logo)
Washington State Ferries

HRSM GENR 0030

Code of Conduct
Policy
WSF shall enforce rules of professional conduct for
all WSF employees.
Objective
To maintain an effective, productive and professional
work environment.
Responsibility
Upon acceptance of employment with WSF, each
individual employee agrees to abide by these and
other lawful rules and regulations.
WSF management is responsible for enforcement of
Code of Conduct and will respect the civil rights,
constitutional rights collective bargaining agreement
rights and Merit System rights of employees and will
not violate those rights in the execution of it
disciplinary processes.
Procedure
Progressive Disciplinary Process
The progressive disciplinary process includes:

App. 34
- Verbal counseling used to alert employee of
violation(s), of rules, or below standard work
performance.
- Written notices used to formally notify employees of
rule violations(s), serves as a warning for future
violations, and provides an action plan for corrective
action.
- Suspension (may be the first step in progressive
discipline for a more serious offense)
- Reduction in salary or demotion to a position of
lower classification.
- Termination of employment occurs when a verbal or
written warning, suspension, or reduction in salary
or demotion is not effective in achieving the desired
change of behavior.
If you are found to have violated rules 1 through 6,
you may be immediately terminated from
employment.
1. Insubordination
…
2. Alcohol or Illegal Drug Use
…
3. Theft
…
4. Neglect of Duties
…
5.
Falsification of Documents or Disclosure of
Confidential Records
…
6. Criminal (or Disorderly) Conduct
…
Note: Failure to abide by the following rules may
lead to disciplinary action up to and including

App. 35
immediate termination or, if less serious, to
progressive discipline.
7. Unauthorized Possession of Weapons
…
8. Cash/Check Handling Procedures
…
9. Violation of Safety Rules
…
10. Dependability
Failure to report for work on time or repeated
absences from duty.
11. Discrimination or Harassment
…
12. Unethical Conduct
…
13. Threats or Acts of Violence
…
14. Discourtesy to Others
…
15. Violations of Policies and Rules
…
16. Work Regulations
…
17. Abandoning Worksite
…
18. Off-Duty Conduct
…
19. Poor Work Performance
Repeated failure to perform duties at the level or
standard required of your assigned position.
20. Testing positive for alcohol or drugs while at
work, but not being under the influence.
…

App. 36
State Ferries apologizes for misleading claims
about pay raises
The Washington State Ferry system is correcting
inaccurate information its director released in
advance of a KING 5 Investigation last week.
Author: Susannah Frame
Published: 5:54 AM PST December 2, 2016
On Monday, November 21, the KING 5 Investigators
reported on pay increases for some ferry workers
recommended and supported by State Ferries
management. While the average American will
receive a 3% increase in 2017 and federal employees
are set to see a 1% bump in pay, two groups of ferry
employees are on tap to get 25% and 28% pay raises
over the next two years. The groups are
approximately 25 staff masters (also known as
captains) and 25 staff chief engineers who oversee
operations below deck in the engine room.
Minutes before the 10 p.m. broadcast on the
November 21, a ferry worker forwarded an internal
email to KING written by the top ferry executive,
Asst. Secretary of Washington State Ferries Lynne
Griffith. Griffith sent the communication to all ferry
employees. In it she criticized the upcoming news
report for disregarding data that supported the
double-digit raises.
“The media report tonight is based, in part, on
comments from disgruntled former employees and
ignores the recruitment and retention study that

App. 37
clearly demonstrates the gap in their compensation. I
believe this type of media coverage does not
accurately reflect how you are valued by our
organization and the communities we all serve,”
wrote Griffith.
Griffith did not communicate to the approximately
1,600 employees that neither she nor any member of
her executive team had shared any sort of
recruitment and retention study with KING 5. The
reporters met with Griffith and her top management
for approximately one hour to discuss the raises and
other new perks for ferry workers four days prior to
the broadcast.
In the email to staff, Griffith pointed to the survey as
the core reason behind the proposed wage hikes.
“(The raises were) based on factual information from
a comprehensive salary survey,” wrote Griffith. State
Ferries offered the survey as the basis for the
increases in communications to the Governor’s Office
as well.
KING 5 has since analyzed the 128 page 2016
Marine Employees’ Compensation Survey, compiled
by the state’s Office of Financial Management
(OFM), the budget wing of the Office of the Governor.
KING has found the survey does not support the
proposed increases. In fact, staff chief engineers for
Washington State Ferries make 20% more, not 25%
less, than the comparable group cited in the study.
State Ferries staff masters earn a base wage of 0.1%
less than the comparable group, not 28% less.

App. 38
After alerting State Ferries that the data didn’t
support the increases as outlined to the workforce
and
the
Governor’s
Office,
the
agency’s
communications director said that was a
“communications error.”
“It was not fair of us to put that in the email,” said
Ian Sterling, Communications Director for State
Ferries. “I apologize for that….it’s erroneous to say
the salary increases were based on the survey. It’s
not a useful document (in this context).”
Sterling said he’d done additional research to find
better comparisons than those used by OFM, as the
2016 Marine Employees’ Compensation Survey found
only one comparable maritime entity to compare to
WSF salaries – the Alaska Marine Highway System.
Asst. Secretary Griffith told KING that the raises
were needed for several other reasons as well:
– The positions are critical for safe and efficient
operations of the boats.
– Many of these employees are approaching
retirement age, and a higher pay is needed to attract
people to replace them.
– Some employees with less responsibility earn a
base wage that’s higher than the staff chief engineers
and the staff masters
“So it’s an equity issue and a fairness issue and it’s
the right thing to do,” said Griffith, who came to
State Ferries in 2014. “This is recommended by
management and the reason it was, is because one,
we have the best of the best. I want to keep them,

App. 39
and I want to be sure we’re attracting the best of the
best in the future.”
A staff chief annual base wage is about $99,000. But
with overtime, travel time and other perks, these
workers routinely take home much more. In 2015 the
average take home pay was approximately $150,000
per year. One of the top earners collected $171,000 in
total compensation. Assuming this staff chief
continues earning overtime and other added
payments, the 25% raise would increase his total
compensation to $214,000 - more than double his
base wage.
“Everybody was really blindsided by this (proposed
increase),” said a current ferry employee who did not
want to be identified. “Someone who is already
making almost $200,000 a year and you’re going to
give them a 25% increase? That’s a BMW every year.
And that’s a game changer when it comes to
pensions.”
The co-chair of the state’s Joint Transportation
Commission was surprised to learn of the proposed
raises.
“How do you justify this in a system that is hurting
for money?” asked Sen. Curtis King, R-Yakima. “It’s
a system that we’ve had to scrape and find money so
that we can replace the boats and we can keep this
system alive. This doesn’t make any sense to me.”
The collective bargaining agreements have been
agreed to by the unions representing State Ferries
employees and management, but the legislature has
the final say.

App. 40

Whopping pay raises on deck for some ferry
workers
Susannah Frame, KING 4:40 AM. PST November 22,
2016
About 50 Washington State Ferries employees
could get huge pay increases next year if the contract
negotiated between ferry system managers and the
workers' unions is approved.
The raises would cost the state an additional
$1.2 million a year and would come at a time when
the ferry system continues to face budget challenges,
and riders are being asked to pay more.
Without prompting from the workers' unions,
ferry system managers suggested a pay hike of 28
percent for the approximately 25 staff masters (also
known as captains) working in the fleet. A 25 percent
raise was proposed for the fleet's staff chief engineers
-- the approximately 25 workers who oversee
operations below deck.
The double-digit raises for the two groups still
need to be approved by the legislature. In the
meantime, most other ferry employees are set to
receive pay increases of between 4 percent and 8
percent in the next biennium.
The system’s top executive, Assistant
Secretary of Washington State Ferries Lynne
Griffith, said the proposed boosts in pay are
reasonable because the positions are critical for safe
and efficient operations of the boats. She also said
the current base pay isn’t competitive with private
industry, and since many of these employees are

App. 41
approaching retirement age, higher pay is needed to
attract people to replace them.
Griffith also justified the raises by noting that
some other ferry workers with less responsibility
earn higher base pay.
“So it’s an equity issue and a fairness issue,
and it’s the right thing to do,” said Griffith, who came
to State Ferries in 2014. “This is recommended by
management and the reason it was, is because one,
we have the best of the best. I want to keep them,
and I want to be sure we’re attracting the best of the
best in the future.”
A staff chief annual base wage is about
$99,000. But with overtime, travel time and other
perks, these workers routinely take home much
more. In 2015 the average take home pay was
approximately $150,000 per year. One of the top
earners collected $171,000 in total compensation.
Assuming this staff chief continues earning overtime
and other added payments, the 25 percent raise
would increase his total compensation to $214,000 more than double his base wage.
The co-chair of the state’s Joint Transportation
Commission was surprised to learn of the proposed
raises.
“How do you justify this in a system that is
hurting for money?” asked Sen. Curtis King, RYakima. “It’s a system that we’ve had to scrape and
find money so that we can replace the boats, and we
can keep this system alive. This doesn’t make any
sense to me.”
The KING 5 Investigators found that the ferry
system has changed compensation practices in the
five years since reforms were put in place in response
to KING 5's investigative series, Waste on the Water.

App. 42
That series, which aired in 2010 and 2011, revealed
millions of tax dollars wasted for years by
management providing extra pay to workers, much of
which was not part of collective bargaining
agreements.
For example, some relief (fill in) workers were
able to double their salaries by choosing to work
routes far from their home and getting paid travel
time and mileage for the long commutes. The
investigation also found employees getting paid
thousands of dollars a year to drive to and from work
for “special assignments” that, despite the short-term
implied by their name, lasted for some workers as
long as 10, 12 and 15 years.
Staff chief engineers, who run operations
below deck, were found to be assigning themselves
hundreds of hours of overtime and in some cases
gaming the system to earn triple time.
Asked if it seemed reasonable, given the history, to
reward staff chief engineers with a 25 percent pay
raise, WSF's Griffith said they deserve “every penny
that they get.”
“Have they had to correct their ways and are
there better controls in place? Absolutely. And I’m
not going to withhold from them or any other staff
chief or staff master because of something that
happened in the past that we have since remedied. It
doesn’t seem fair,” said Griffith. “(The problems
uncovered in) Waste on the Water (have) been
corrected. The management team in place is due
diligence. That can’t repeat. (The practices) can’t
repeat. So move on.”
But KING 5 found the ferry system agreed to
reverse the pay reforms made after Waste on the
Water by adding different paths for compensation.

App. 43
In 2011, WSF quit paying relief workers' travel
time to drive to and from work. To make up for the
lost travel money, they started to receive
“assignment pay” instead. Assignment pay is an
additional 20 percent pay bump for every day
worked. This premium is paid to all relief workers,
whether they drive five or 50 miles to work.
“The Washington State Ferry negotiating team
felt we had a good opportunity after Waste on the
Water to cut some costs and take care of the travel
time abuses taking place,” said former WSF
Operations Director Steve Rogers, who served on the
collective bargaining team for 16 years.
“But it backfired because the Labor Relations
Office (LRO) wasn’t concerned with eliminating the
cost factor as much as eliminating the public
perception,” Rogers said.
The LRO negotiates master agreements on
behalf of the governor with union-represented
employees.
“The governor’s negotiators were willing to
appease the unions without taking anything away
from them and changing the perception at the same
time. I told them the perception ruse wasn’t going to
last long,” said Rogers.
A representative from Gov. Inslee’s office told
KING they couldn’t address the allegations made by
Rogers.
“We can’t speak to previous negotiations.
Regardless of comments from former employees, the
data demonstrates there is a market gap. There are
46 individuals in these classifications who are central
to managing safety for all passengers and crew,”
wrote Tara Lee, Deputy Communications Director,
Office of Governor Jay Inslee.

App. 44
The contract for years 2017 and 2018 includes
assignment pay enhancements. Now the relief
workers are scheduled to receive the premium pay
meant to make up for lost travel compensation, even
when they’re not driving anywhere. The 20 percent
extra will be added to their checks when the
employees are sick, on vacation or using comp time.
“That usurped everything we thought we may
have gained. Now you’re getting an hour-and-half
equivalent of travel time pay even if you’re sitting in
Hawaii,” said Rogers.
WSF's Griffith said she didn’t know why the
employees are set to receive the money meant to
make up for travel time but that she would look into
it. The perk is expected to cost State Ferries more
than $400,000 per biennium.
Waste on the Water also prompted the
legislature to reduce overtime pay rates from double
time to time-and-a-half. The goal was to bring the
compensation in line with other state employees. But
in the years since that change was made, WSF
agreed to “call back pay” -- when ferry workers are
called in on a day off they receive time-and-a-half for
all hours worked, plus an additional four hours of
straight time pay. The addition essentially brings the
overtime rate back to double time. (Employees
working overtime hours on a regularly scheduled day
do not receive the call back pay.)
“They’re right back to where they started.
They’re at double time for eight hours,” said former
WSF manager Pete Williams. Williams negotiated
collective bargaining agreements for the ferry system
for 11 years.

App. 45
“They took a temporary reduction over the
years, but they gained back equal to or in some cases
more than they had before," he said. “It’s ridiculous.”
Sponsor of the legislation that reduced
overtime pay to time-and-a-half, Rep. Judy Clibborn,
D-Mercer Island, wasn’t aware of the reorganized pay
structure until contacted Monday by KING. She said
she’s not disappointed in the change.
“If we were still seeing a system with missing
runs and people gaming the system like you exposed
in Waste on the Water then I would be upset. I’m not
upset because we have a well-run, well-oiled ferry
system,” said Clibborn, who is co-chair of the Joint
Transportation Committee. “I’m feeling so good about
the way the ferry system is being run today.”
Current management is new, and officials said
they can’t speak to leadership’s motivation for adding
the new forms of compensation in the years after
2011. But Griffith stands by the jumbo pay raises for
some along with other add-ons agreed to by her staff
in the most recent rounds at the bargaining table.
“These are highly skilled, technically sound
individuals who are responsible for thousands of
passengers safety every single trip,” said Griffith.
The legislature could ask for changes.
“As we go through the budget process (in the
upcoming legislative session) we will start working
on the transportation budget and we will see what
the justification was (for the raises) and will decide
whether or not we want to authorize it,” said Sen.
King.

App. 46

From: Griffith, Lynne
Sent: Monday, November 21, 2016 4:01 PM
To: WSDOT WSF All Staff
Subject: Media Coverage
Hello fellow ferry employees.
I am so proud of our system and the hard work you
perform every single day. I've had the pleasure of
being your Assistant Secretary since September
2014. We’ve cut the number of missed sailings due to
crewing by more than half and made management
more responsive and accountable to the needs of the
fleet.
We expect media coverage to air on King 5 tonight at
11:00p.m. <https://remotemail.wsdot.wa.gov/
OWA/UrlBlockedError.aspx> that focuses on the
tentative salary increases negotiated for our Staff
Masters and Staff Chiefs. I wanted to touch base
with you before the segment airs.
As many of you know, we have a significant
recruitment and retention problem looming in these
and other positions. These positions play critical
safety and leadership roles in our fleet. With so many
of these skilled mariners nearing retirement age,
strategic decisions are needed to prepare.
Even with the proposed increase in pay, the people
who fill these positions will still not earn what their
counterparts in the private sector make. It gets us
closer to market rates, but still below what other

App. 47
organizations can offer for salary. See the 2016
Marine Employees’’ Compensation Survey here
<http://www.ofm.wa.gov/reports/Marine_Employees_
Compensation_Survey_and_Appendix_2016.pdf>.
The media report tonight is based, in part, on
comments from disgruntled former employees and
ignores the recruitment and retention study that
clearly demonstrates the gap in their compensation. I
believe this type of media coverage does not
accurately reflect how you are valued by our
organization and the communities we all serve.
Your management team stands behind this decision
and you. It was based on factual information from a
comprehensive salary survey.
I’m asking you to stay positive and focused on your
important work.
WSF employs amazing people and together we will
continue to operate one of the safest and largest ferry
systems in the world.
Thank you for all you do.
Lynne
Lynne Griffith
Assistant Secretary
WSDOT, Ferries Division

App. 48
Jeff Duncan
From:
Kosa, Elizabeth <KosaE@wsdot.wa.gov>
Sent:
Thursday, January 22, 2015 3:18 PM
To:
Jeff Duncan; Bill Knowlton; Chad Scott
Subject:
FW: Do not re-hire
As requested from our MEBA monthly today
Regards,
Elizabeth Kosa
Washington State Ferries
Senior Port Engineer
Office: (206) 515-3827
cell: (206) 375-5612
KosaE@wsdot.wa.gov
From: Manning, Linda
Sent: Thursday, January 22, 2015 3:17 PM
To: Kosa, Elizabeth
Cc: Ragsdale, Stacey
Subject: Do not re-hire
This is our current do not re-hire list
Crystal Connor
Lance Musselman
Lyle Sloan
Theresa Ortloff
Linda Manning, Supervisor
Human Resources Consultant
WSDOT/WSF
Desk: (206) 515-3790 / Fax: (206) 515-3489
manningl@wsdot.wa.gov

App. 49
_________________________________________________
From: Jeff Duncan (mailto:jduncan@mebaunion.org)
Sent: Wednesday, January 7, 2015 12:53
To: Capacci, George
Cc: Kosa, Elizabeth; Chad Scott; Knowlton, Bill
Subject: Do not hire
George,
We spent fifteen (15) minutes in our files and pulled
a couple of examples of “Do Not Hire/Dispatch”
letters for you. As you can see in the most recent
letter it refers to a “list” maintained by WSF. Please
provide the Union with the most current form of the
Do Not Hire/Dispatch list.
Best Regards,
Jeff Duncan
Seattle Branch Agent
(Logo)
Marine Engineers’ Beneficial Association
Founded 1875
…

App. 50
(Logo)
Washington State Department of Transportation
…
November 22, 2013
Theresa Ortloff
5524 148th PL SW
Edmonds, WA 98026
Dear Ms. Ortloff,
This is to inform you of termination of your
probationary appointment as an On-Call Oiler
employee with the Washington State Department of
Transportation, Ferries Division (WSF), and effective
November 26, 2013. Please return all WSF property
in your possession to:
your Supervisor or the
Washington State Ferries, 2901 3rd Ave, Suite 500,
Seattle, WA 98121-1012, ATTN: Security.
This action is taken pursuant to Rule 33.01 of the
Collective Bargaining Agreement by and between
Washington State Ferries and the Marine Beneficial
Association (MEBA) that specifically states:
“Newly hired employees shall serve a
probationary period of five (5) calendar
months. The employee may be terminated
during the probationary period or at the end of
a probationary period for a bona fide reason(s)
relating to the business operation and said
employee shall not have recourse through the
grievance procedure.

App. 51
I have determined your performance and
commitment to the Washington State Ferries during
your probation period does not meet expectations of
an On-Call employee by being available for work at
all times. On too many occasions you have been
called to be dispatched and assignments have been
refused or negotiated for a variety of reasons.
Based upon the language of the referenced
agreement between MEBA and WSF, I find it
necessary to terminate your employment effective
immediately. It is most unfortunate that this action
is necessary, and we wish you well in your future
endeavors.
Sincerely,
(Signature)
Steven Vonheeder, P.E.
Director of Vessels
Washington State Ferries
cc:

Personnel File
Bill Knowlton, MEBA Business Agent
Elizabeth Nicoletti, Senior Port Engineer

App. 52
From: Williams, Pete
Sent: Tuesday, November 12, 2013 11:53 AM
To: Nicoletti, Elizabeth
Cc:
Rodgers, Steve; Vonheeder, Steve; Capacci,
George A; Wharton, Donna
Subject: FW: Dispatch
Elizabeth,
I am forwarding you an e-mail from Theresa Ortloff.
Initially it seems like she is trying to be proactive. A
closer look and read reveals she somewhat thinks
dispatch is required to work around her availability.
It is my understanding she is an on-call oiler. The
suggestion that she does her best to notify dispatch of
when she is available and expects dispatch to work
with her availability would and is setting a new level
of on-call status. Of course she can call in if she is
sick or can schedule an occasional day off but the
idea she can provide a list of availability days is not
something on-calls are allowed to do.
In addition she has used unavailable status to take
her significant other to or pick up from the airport.
Yesterday, she called in 1.25 hours before work
stating work on the Kennewick for a boiler watch,
stating she has a disagreement with the Chief about
pay. The avenue for pay issues lies in the CBA
utilizing the grievance procedure. …

App. 53

From: Ortloff, Theresa
Sent: Monday, October 07, 2013 10:18 PM
To: Morrison, Rachel
Subject: Dispatch
Rachel,
I just wanted to say a few things about our
conversation the other day on the phone. I want to
work with Dispatch as a TEAM, communication is
the most important key to understanding on both
ends to make sure we're both on the SAME PAGE!!!
…
I suggested emailing you all the pertinent info.
needed for Appt.'s etc... & letting you know days I can
work Nights or Days around the Appt.s & you said
not a good idea, I didn't agree with your answer so I
mentioned from now on I'll document everything
needed on my end & also have Dispatch reiterate to
make sure we're both on the same page before we get
off the phone. I'm sure being a Dispatch employee is
not an easy job & I understand that but if we try
harder to communicate & are on the same page
hopefully we'll have less issues.
Examples of things the past few months with
Dispatch: I understand some of these items listed
below will change if you get calls from other boats
etc... needing or not needing On-Calls.
1.) They'd schedule a day for me to work & then they
would call back & cancel & give it to someone else &

App. 54
also when I worked a few days at 1 location & not
letting me finish the last day I was to be scheduled to
work the same boat the few days prior, this has
happened a few times.
2.) Say I was to work a different day than they first
told me.
3.) Saying they needed an Oiler the first phone call &
calling back & said they needed a Chief instead.
4.) Appt.s' confusion etc..., mix-up could be on either
end- I might of thought I told Dispatch correctly but
didn't or maybe Dispatch misunderstood etc... not
sure but hopefully we can improve on the
communication & again make it all work together as
a Team effort. I am willing to try & work with
Dispatch, let me know of any suggestions you may
have to improve the process.

App. 55
From: Manning, Linda
To: Nicoletti, Elizabeth
Cc: Kelly, Shane
Subject: RE: Theresa Ortloff issues
Date: Thursday, November 07, 2013 10:23:44 AM
Is there reason for her not make probation. If so,
please provide because right now you have nothing.
Linda
Linda Manning
WSDOT/Ferries Division
Human Resource Consultant
manninl@wsdot.wa.gov
206/515/3790 Desk
206/515/3489 Fax

App. 56
From: Nicoletti, Elizabeth
Sent: Tuesday, November 05, 2013 8:35 AM
To: Manning, Linda
Cc: Kelly, Shane
Subject: Theresa Ortloff issues
Please read these. Ms. Ortloff is currently on
probation. I have also has stirrings that there are
issues in the fleet with her performance. Let me
know what you think and we can discuss.
Regards,
Elizabeth Nicoletti
Washington State Ferries
Seattle, WA 98121-3014
…

App. 57
From: LaCroix, Mike
Sent: Tuesday, November 05, 2013 7:53 AM
To: Ortloff, Theresa
Cc: Kelly, Shane; Nicoletti, Elizabeth
Subject: FW: Kennewick time sheet incorrect code
S/B 465 for YARD OILER
Theresa,
In my e-mail from yesterday copied below I stated
that your pay would be submitted as Pay Code 450,
provided you with detailed references regarding why
I considered that to be the correct pay code, and
asked nicely that if you had any more questions to
please contact a Port Engineer or Union
Representative. Since then you have called at least
one of the Oilers working aboard Kennewick, called
the Kennewick engine room phone, and then emailed
me three separate times.
I have no interest in, nor time for debating whether
or not sweeping the deck constitutes duties above
and beyond a security watch.
Please stop calling and emailing me as it is
approaching a level of harassment.
Mike LaCroix
SCE Kennewick

App. 58
From:
Sent:
To:
Subject:

Grabecki, Thomas
Saturday, October 05, 2013 1:53 PM
Morrison, Rachel
Theresa Ortloff relief 10/7?

She called in saying she called in ahead of time to
schedule a doctor for 10/7. There’s no record of that.
She said she put it in 3 weeks ago and is very
frustrated that there’s no record of this. She is not
canceling any of her future work days currently
scheduled. I told her I would tell you and she may be
calling tomorrow to talk to you. She wanted you to
know she’s very frustrated. I just said I’d pass the
message.
Thomas

App. 59
From: Trimmer, David (Dave)
To: Nicoletti, Elizabeth
Subject: RE: Theresa Ortloff
Date: Tuesday, August 13, 2013 7:10:05 AM
Senior P/E Nicoletti,
Negative on the documentation/counseling directly
with Ms. Ortloff. It would have been pointless. I will
make a list of her deficiencies. You might give John
Settles a call and get his impression of her
performance. She was there the two nights previous
to being here. In a nutshell, they “mustered up the
patience to go step by step through stuff with her”.
That quote is from an email correspondence I had
with John.
Generally speaking, I do not believe she is a stupid
person. Just completely out of her element. She
works from lists. A list for going on shore power, a
list for pumping sewage (poorly executed), etc. She is
following the lists but I do not believe she
understands what she is doing. I have standing
directives for the Oiler on my watch and I present
this to all new Oilers who show up as Reliefs. It lets
them know what I expect of them and how to fill out
the Oiler Reading’s chart, etc. It ensures that we are
operating on the same page. It is about three pages
long, of a larger font, and covers things like when to
check main engine lube oil level and how to enter it
on the chart, to maintain consistency between
watches. Pretty basic. The second evening here she
happened to leave it laying on her desk. It was
heavily annotated, highlighted and underlined to the
point of being comedic. Under the section ‘Main

App. 60
Engine Lube Oil: Ideally checked when the engine is
at idle…’ above this was written and circled
‘dipstick’. I was tempted to make a copy of it but felt
it would have been an invasion of her privacy.
A question she had, while taking on water the second
night, was ‘Should both the tanks (flush/potable) be
full before shutting off the water?’. She was not
kidding.
Catching her before she disconnected a full sewage
hose, on the second night. She should not have an
Oilers endorsement. I know how she got it but she
shouldn’t have it. She might be all right if she were
to have a year or two as a wiper but I doubt there are
many that are willing to watch over her for that long.
It’s only a matter of time before she hurts herself or
destroys a piece of machinery.
I’ve been here for 15 years and this is the first time
that I have notified dispatch not to send someone
back to my watch. I would suggest you keep an eye
on Ms. Ortloff. Six months and then WSF owns her.
Have a good day,
Dave

App. 61
From: Nicoletti, Elizabeth
Sent: Monday, August 12, 2013 9:28 AM
To: Trimmer, David (Dave); Morrison, Rachel
Cc: Wilson, Paul
Subject: RE: Theresa Ortloff
David,
Were you able to fill out any performance
documentation/counseling (formal or informal) with
Ms. Ortloff directly. I would like to document your
conversations with her and keep them on record.
Give me a call on my Cell 206 375 5612
Regards,
Elizabeth Nicoletti
Washington State Ferries
Senior Port Engineer
Office: (206) 515-3827
cell: (206) 375-5612
NicoleE@wsdot.wa.gov

App. 62
From: Trimmer, David (Dave)
Sent: Sunday, August 11, 2013 6:56 AM
To: Morrison, Rachel
Cc: Nicoletti, Elizabeth
Subject: Theresa Ortloff
Good morning Rachel.
I hope you had pleasant and relaxing days off.
I realize that you have a shortage of Oilers and have
difficulty filling positions of employees who are sick
or on vacation. Having said that, in the future, the
services of Ms. Ortloff will not be required on this
watch. Please do not dispatch her to the Chelan, CWatch. Her level of knowledge regarding the
maritime industry is zero. We do not have the time to
train someone from the bottom up and I can’t have
my Assistant following her around and showing her
everything, repeatedly. When a new Oiler is sent to
this vessel, they need to have a basic level of
understanding of ship board systems and operations.
Ms. Ortloff does not possess this. Any instruction
given to a new Oiler, on our part, is supplemental
and vessel specific. I am really quite surprised that
she has an Oiler’s endorsement. Her further
employment with WSF will need to be addressed by
the Port Engineers office.
Thank you for your attention to this matter and I
hope it does not work a hardship on you in filling the
C-Watch Oiler position on the Chelan. If you have
any questions feel free to call me.
Have a good day,
Dave

App. 63
…
2.
I received a copy of some WSF timesheets of
Dave Trimmer from 2010 to 2013. I can’t determine
if these are the original timesheets or if they have
been amended, in part because the defendants have
not provided the bi-weekly pay stubs and the end of
the year IRS W-2 Forms. The bi-weekly pay stubs
show overtime and other amounts a worker received.
Timesheets are filled out by a manager like Trimmer,
and his supervisor is supposed to review and initial
them and sign them. Bi-weekly pay reports are then
issued which detail overtime and other pay the
person received. At the end of the year, W-2’s or
1099’s are then issued based on the bi-weekly pay
reports. Some of the timesheets did not have proper
initials and signatures. Other timesheets were
resubmitted more than once because I found a few
multiple copies for the same two week period.
3.
Attached as Exhibit A is a true and correct
copy of some of the 2013 relevant Trimmer
timesheets received from the Defendants. After
reviewing the Trimmer timesheets for the years
2011, 2012, and 2013, it has become obvious Trimmer
was adding penalty pay for penalty time. “Penalty
pay” is a category of extra pay, usually double time,
for certain dirty jobs, such as going below the deck
plates to inspect and clean the bilges. Attached as
Exhibit B is Section 29.08 of the 2011-2013
Unlicensed MEBA contract which states penalty time
should be given to unlicensed employees, which
means oilers or wipers (who have a lower rate of
pay), unless it is an emergency. Exhibit B, p. 3, §
29.08. Trimmer was not an oiler or wiper, and
instead a chief. In Exhibit A, Page 1 line 6, page 2
line 3, page 3, line 5, page 4 line 5, and page 5 line 5

App. 64
show Trimmer was routinely claiming penalty time
for what appear to be routine cleaning operations for
approximately $87 per hour. Trimmer added
approximately 83 hours of penalty time in 2011,
approximately 72 hours of penalty time in 2012, and
approximately 42 hours of penalty time in 2013.

App. 65

…

(Logo) Washington State
Department of Transportation
Ferries Vessel Engine Time Sheet

Employee ID Employee Name Department
565335
Trimmer David E. Engine
Pay Cycle
Start Date End Date
07/01/2013 07/31/2013
Work Watch Class
Pay Reason … Work Days
Order
Worked Paid Code Code … Mo
…
5) 858305 C 405
405 07
HP
3
…

App. 66

…

(Logo) Washington State
Department of Transportation
Ferries Vessel Engine Time Sheet

Employee ID Employee Name Department
565335
Trimmer David E. Engine
Pay Cycle
Start Date End Date
06/01/2013 06/30/2013
Work Watch Class
Pay Reason … Work Days
Order
Worked Paid Code Code … Mo
…
5) 858305 C 405
405 07
HP
2
…

App. 67

…

(Logo) Washington State
Department of Transportation
Ferries Vessel Engine Time Sheet

Employee ID Employee Name Department
565335
Trimmer David E. Engine
Pay Cycle
Start Date End Date
05/16/2013 05/31/2013
Work Watch Class
Pay Reason … Work Days
Order
Worked Paid Code Code … Mo
…
5) 858305 C 410
410 07
HP
3
…

App. 68

…

(Logo) Washington State
Department of Transportation
Ferries Vessel Engine Time Sheet

Employee ID Employee Name Department
565335
Trimmer David E. Engine
Pay Cycle
Start Date End Date
04/01/2013 04/15/2013
Work Watch Class
Pay Reason … Work Days
Order
Worked Paid Code Code … Tu
…
3) 858305 C 410
410 07
HP
4
…

App. 69

…

(Logo) Washington State
Department of Transportation
Ferries Vessel Engine Time Sheet

Employee ID Employee Name Department
565335
Trimmer David E. Engine
Pay Cycle
Start Date End Date
03/16/2013 03/31/2013
Work Watch Class
Pay Reason … Work Days
Order
Worked Paid Code Code … Su
…
6) 858305 A 410
410 07
71
1
…

App. 70
(Logo)
Washington State
Department of Transportation
…
March 6, 2013
Theresa Ortloff
5524 148th PL SW
Edmonds, WA 98026
Dear Ms. Ortloff:
Congratulations! This letter is to confirm your
probationary appointment with the Washington
State Department of Transportation, Ferries Division
to the position of on-call Oiler effective March 11,
2013. …
…
If you have questions regarding your employment,
please
contact
your
Human
Resources
representative, Linda Manning, at (206) 515-3790.
Welcome Aboard!
Sincerely,
(Signature)
David H. Moseley
Assistant Secretary
Washington State
Ferries

(Signature)
Steven R. Vonheeder
Director of Vessel
Maintenance
Preservation &
Engineering
Washington State Ferries
cc: Office of Human Resources
Bill Knowlton, MEBA Business Agent

App. 71
…
14-Nov-00 TRIMMER, JR. DAVID E … 20 $724.40
…

App. 72
PRIVILEGE
Should the Defendant refuse to produce any
document requested herein on the grounds of
privilege, state for each such document:
(1) The basis for the claim of privilege;
(2) The type of document (e.g., letter, memorandum,
contract, etc.), the date of the document and the
subject matter of the document;
(3) The name, address and position of the author of
the document and of any person who assisted in its
preparation;
(4) The name, address and position of each addressee
or recipient of the document or any copies of it; and
(5) The present location of the document and the
name, address and position of the person having
custody of it.
INTERROGATORIES
PRODUCTION

AND

REQUESTS

FOR

INTERROGATORY NO. 1: Identify all documents
related to Theresa Ortloff.
ANSWER: Objection. This request is overly broad,
unduly burdensome, and vague as to what is sought.
As such, it is not reasonably calculated to lead to the
discovery of admissible evidence in that it is not
limited in time, scope or subject matter. Defendant
has no personal knowledge of this case and does not
personally possess any documents relating to
Theresa Ortloff. Subject to and without waiving
objections, as an accommodation to these

App. 73
interrogatories, Defendant's counsel is investigating
Washington State Ferries' knowledge of the
allegations in the case and further identifying
relevant documents. Most documents have already
been provided in the initial lay down. As to emails
relating to Theresa Ortloff, it would be unduly
burdensome for Washington State Ferries to produce
all emails, it would take approximately 90 hours to
review and redact the 1,458 emails plus attachments.
Therefore, it is requested that Plaintiff identify
specific "search terms" so as to limit the scope of the
search.
REQUEST FOR PRODUCTION A: Produce all
documents related to the previous interrogatory.
RESPONSE: See response to Interrogatory No. 1.

App. 74
INTERROGATORY NO. 4: Identify each and every
instance referred to in the termination letter dated
November 22, 2013, which is attached to these
interrogatories as document P3, that Ms. Ortloff was
"called to be dispatched and assignments have been
refused or negotiated for a variety of reasons".
ANSWER: This Defendant has no personal
knowledge of any instances referred to in the
termination letter dated November 22, 2013. As an
accommodation, Washington State Ferries has
identified the following:
1. 08-08-13 (evening)
2. 08-09-13 (morning)
3. 08-11-13 (evening)
4. 08-12-13 (morning and evening)
5. 08-13-13 (morning)
6. 09-05-13 (day shift)
7. 09-25-13 (evening)
8. 09-26-13 (morning)
9. 10-04-13 (evening)
10. 10-05-13 (morning and day shift)
11. 10-07-13 (day shift and evening)
12. 10-08-13 (morning)
13. 10-14-13 (evening)
14. 10-15-13 — Ortloff later changed her mind and
asked for work on this date.
15. 10-16-13 (day shift)
16. 10-17-13
17. 10-31-13 — Ortloff may have reported late, or not
at all, for a watch this date.
18. 11-04-13 (day shift)
19. 11-05-13

App. 75
20. 11-10-13 (evening) — Ortloff cancelled her
participation on this watch 75 minutes prior to watch
starting.
21. 11-11-13 (morning) — Ortloff cancelled her
participation on this watch 75 minutes prior to watch
starting.
Theresa Ortloff was eligible to potentially work
during 104 different calendar days. She removed
herself from all or part of 21 of those days.
REQUEST FOR PRODUCTION D: Produce all
documents related to the previous interrogatory.
RESPONSE: See Attachment 1, Bates No. 70010001
70010016.

App. 76
3.
… Attached as Exhibit AH is a true and
correct copy of the progressive disciplinary policy I
received when I went through new employee
indoctrination at
the Washington State Ferries. I was never brought
up on any Code of Conduct for violating any code of
conduct for any unavailability. …
4.
In 2012, I decided to train to become an oiler
at the Washington State Ferries after working
approximately
30
years
at
Physio-Control
Corporation. In support of my plan to become a WSF
oiler, I paid for and attended the TRL Maritime
School in San Diego, California from about February
to March, 2012.
5.
I decided to participate in an internship
program at the Washington State Ferries and worked
on the Ferry MV Spokane with assistant engineer
Maureen McGarrity, from about May, 2012 to
September, 2012.
6.
On September 8, 2012, Staff Chief Dennis
Kavanagh certified I was qualified under U.S. Coast
Guard regulations 46 C.F.R. §§ 15.405 and
199.180(b)(1) to work as an oiler at the Washington
State Ferries. See Break-In record Exhibit AV.
7.
On July 8, 2013, I signed up on the Oiler list to
get hired at the MEBA Union and paid $35 to MEBA.
On July 9, 2013, I went to the MEBA Union Hall and
was hired as an on-call oiler and paid 3 months of
$50 monthly MEBA union dues, which totaled $150.
8.
During the July, 2013 timeframe, I attended
orientation/new hire training at the Washington
State Ferries that lasted approximately one month.
9.
Griffith in her interrogatories claims I was
unavailable 21 times. The following paragraphs with
a “#” symbol respond to each of the Griffith’s

App. 77
numbered alleged unavailabilities: #1 & 2) On
August 8 , 2013 my first Watch started & it ended
the next morning of August 9, 2013, they count 1
Watch as 2 days. I served as an on-call oiler on a
Washington State Ferry for the first time, and
observed various oiler duties. Exhibit AI.
10.
#3, 4 & 5) I do not think Dispatch called me to
work evening of 08-11-13, morning &
evening of 08-12-13 and morning of 08-13-13. I
wouldn’t have turned work down because it
was my first week as a new Oiler. Those would have
been 2 Watches start work in the evening
& ended next mornings & they count 1 Watch as 2
days.
11.
On August 10 and 11, 2013 I served as an oiler
on the Washington State Ferry Chelan. Chief
Trimmer was my supervisor. Chief Trimmer
immediately established a hostile work environment.
I was attempting to pump sewage and Chief Trimmer
approached me and claimed I was thinking about
disconnecting sewage hoses, he yelled at me, and told
me to go back down below to the Engineering
Operating Station. I was observing the pumping
process in the correct manner. Trimmer did not ask
me what I was doing, and he did not offer to help or
instruct me.
12.
Trimmer stated he did not have time to train
me and he would not allow his assistant to instruct
me.
13.
My public Records Act request identified above
included the August 11, 2013 Trimmer e-mail to
dispatcher Rachel Morrison in which he told her not
to send me back to his boat. Exhibit C.
14.
On August 13, 2013, Trimmer sent an e-mail
to Nicoletti (Kosa) in which he criticized my abilities

App. 78
and in my Complaint I allege Trimmer made a
reference to Floyd McLaughlin by stating, “She
should not have an Oiler’s endorsement. I know how
she got it but she shouldn’t have it.” Exhibit D.
15.
#6) On September 5, 2013 Dispatch called to
ask about the doctor appointment on the 6th &
wanted to know if I was still going to work evening of
September 6th & I said yes, which I did work that
evening & they made an error in their records &
counted that as an unavailability. Exhibits AJ, AO, p.
4, 4th entry, AQ.
16.
#7 & 8) On September 25, 2013 I was going to
work that evening until Dispatch called & said they
were putting Chris Sutton in my place because he
had seniority. This is two mistaken unavailabilities
because they count 1 Watch as 2 days for evening of
September 25, 2013 /morning of September 26, 2013.
Exhibits F, AO, p. 3, 1st entry.
17.
#9) On evening of October 4, 2013Rachel
Morrison approved me not working that evening
because I had to take Floyd McLaughlin to the
Airport that next morning of October 5, 2013.
Everything related to taking & picking Floyd up from
the Airport were all approved ahead & in fact Rachel
asked Floyd to take vacation at that time because a
Relief Chief needed work. Exhibit H, McLaughlin
Declaration, ¶ 6.
18.
In addition to the monthly $ 50 MEBA union
dues, a MEBA union member is also required to pay
a $4,000 initiation fee within the first two years of
being a union member. On October 3, 2013, I paid
$500 toward the $4,000 union initiation fee, and I
paid 3 months of the $50 monthly union fees which
totaled $650.

App. 79
19.
#10) On morning of October 5, 2013 I took
Floyd McLaughlin to the Airport approved ahead by
Rachel Morrison. I also worked that night. Exhibit
AK, Airline Itinerary attached to the Declaration of
Floyd Mclaughlin. McLaughlin Decl., Ex. C.
20.
#11 & 12) On the morning of October 7, 2013, I
got off work that morning from a night watch the
night before and I also had a doctor appointment this
same day. I don’t recall being called to work the
evening of October 7, 2013 which would have ended
the morning of October 8, 2013, again they count 1
Watch as 2 days. Exhibits G, AK, AR.
21.
#13) On the evening of October 14, 2013
Rachel Morrison approved my not working that
evening because I had to pick Floyd McLaughlin up
from the Airport that next morning of October 15,
2013. Everything related to taking & picking Floyd
up from the Airport were all approved ahead & in
fact Rachel asked Floyd to take vacation at that time
because a Relief Chief needed work. Exhibit H.
22.
#14) I changed my mind about working the
evening of October 15, 2013 because Floyd called me
on or around October 14, 2013 & said he made a
mistake must of looked at his Itinerary wrong & now
I don’t have to pick him up from the Airport until
morning of October 16, 2013. So I called Dispatch
right away & said I can now work evening of October
15, 2013 & I did. Exhibits H, AL.
23.
#15) On October 16, 2013 I got off work that
morning from a Night Watch night before & then
later that morning I went to the Airport & picked up
Floyd McLaughlin & also worked that same evening
again. Exhibits H, AL.
24.
#16) On October 17, 2013 I got off work that
morning from a Night Watch night beforeExhibit AL.

App. 80
25.
#17) On or about October 31, 2013, I worked
on the Ferry Kennewick and submitted my timesheet
to my supervisor Mike La Croix. After I received my
pay sheet back, I realized my pay was incorrect, to a
lower pay rate. I informed La Croix he had
misclassified my pay to a classification that had a
lower pay rate. I called La Croix on the telephone
and informed him of the mistake. La Croix
eventually agreed that he had misclassified my pay
and changed it to the correct pay rate. Around that
same time La Croix wrote an e-mail to Elizabeth
Nicoletti (Kosa) and stated he felt harassed by my
attempt to clarify the pay issues of a probationary
employee. See timesheet Exhibit AN and La Croix
email to me stating level of harassment, which he
turned me in for harassment in that email. Exhibit I.
26.
#18) On November 4, 2013 I had a dentist
appointment approved ahead by Rachel Morrison & I
also worked that night. Exhibits AS, AM.
27.
#19) On November 5, 2013 I got off work that
morning from a night watch the night before. See
Exhibits AS, AM, same Watch as #27.
28.
On November 5, 2013, Nicoletti (Kosa) sent an
e-mail to Linda Manning, my personnel manager,
asking about my status and Ms. Manning responded
on November 7, 2013 and stated Nicoletti (Kosa) had
no reason to prevent me from changing from a
probationary employee to a full-time employee (“you
have nothing”). Exhibit P.
29.
#20 & 21) November 10 & 11th, 2013 are the
same Watch, I would have started in the evening &
got off the next morning. I turned down the Watch
because I felt it would of been a
hostile work environment to go back to La Croix’s
boat after the timesheet issue on November 1, 2013

App. 81
which he turned me in for harassment just for asking
for the correct pay while the boat was in the Yard.
Exhibits I, J, O.
30.
The Defendants claim that calling in 75
minutes before a watch for a relief affects a boat on
the run. The boat I was going to was tied up. I turned
it down because I felt it would be a hostile work
environment because of the timesheet issue I had
with La Croix on November 1, 2013, he turned me in
for harassment & I felt threatened & harassed.
Exhibits I, J & O.
31.
I observed how probationary employees were
treated and, with my 30 years of experience at
Physio-Control, decided to make a spreadsheet
describing the pay and procedures of a probationary
on-call Oiler. A few WSF employees saw my
spreadsheet and wanted a copy. I have heard reports
that my spreadsheet is used to this day by one or
more persons at WSF.
32.
On or about November 11, 2013, I called
Rachel Morrison regarding being dispatched and she
stated there was no problem with my performance on
the WSF Dispatcher end.
33.
On November 5, 2013, Nicoletti (Kosa) sent an
e-mail to Linda Manning, my personnel manager,
asking about my status and Ms. Manning responded
on November 7, 2013 and stated Nicoletti (Kosa) had
no reason to prevent me from changing from a
probationary employee to a full-time employee.
Exhibit. P.
34.
The e-mails from my Public Records Act
request show Kosa sent Manning two e-mails on
November 21, 2013 regarding the Trimmer e-mails
and my unavailabilities for bringing Floyd
McLaughlin to the airport. Exhibits W, X.

App. 82
35.
In a letter dated November 22, 2013 WSF
Director of Vessels Vonheeder stated, “I have
determined your performance and commitment to
Washington State Ferries during your probation
period does not meet expectations of an On-Call
employee by being available for work at all times. On
too many occasions you have been called to be
dispatched and assignments have been refused or
negotiated for a variety of reasons.” Exhibit Y.
36.
Attached as Exhibit AG is a true and correct
copy of the front page and pages 46 and 47 of the
Collective Bargaining Agreement between the State
of Washington and District No. 1 – PCD of MEBA
(Unlicensed Engine Room Employees) dated July 1,
2013 (“CBA”). Rule 33.01 of the CBA states newly
hired employees shall serve a probationary period of
5 months during which the employee may be
terminated for a bona fide reason relating to the
business operation, and the employee shall not have
recourse through the grievance procedure.
37.
I received no notice or opportunity to respond
to the disciplinary charges before the termination
letter was sent.
38.
I observed and it was common knowledge that
probationary employees were routinely allowed to
negotiate what days they would work.
39.
I had to request a couple unavailability days
for routine medical, dental check-ups and taking &
picking Floyd McLaughlin up from the Airport. Also
an unavailability for the instance when Staff Chief
La Croix gave me incorrect pay and he was
threatening to turn me in for harassment if I
continued my complaints and he effectively did turn
me in for harassment.

App. 83
40.
I witnessed Jesse Sutton get thrown out of
indoctrination class for showing up late, falling
asleep in training class, and talking on his cell phone
during class. On subsequent WSF Crew Lists I
noticed Jesse Sutton is listed full time. In my 2014
Public Records Act Request I, see that he was added
to the new hired list of fulltime employees.
41.
I was generally liked and complimented on my
abilities by many if not all of the crew members I
worked with. Several also wrote letters of
recommendation including Carol Porth, Maureen
McGarrity, Jesse Duncan, and Jim Sturgul. True and
correct copies of the letters are attached as Exhibit
AW.
42.
In December, 2013 I met with a private lawyer
and had a telephone conference with Bill Knowlton,
MEBA Union representative and formulated a plan
to attempt to meet with the WSF management. I was
informed the WSF refused to meet with me, my
lawyer and the union representative concerning my
employment.
43.
I was suffering from emotional distress from
the firing and decided the best thing to do was to
obtain
other
temporary
employment
while
attempting to regain my position at the WSF. I have
worked several temporary jobs from January, 2014 to
the present.
44.
In mid-2014 I asked Bill Knowlton if I could
sign up for a new (WSF) oiler position and Bill
Knowlton stated I could. I watched for new oiler
positions at the union hall and signed up again. On
October 16, 2014 I added my name to the Oiler List
to get hired and paid a $40 fee.
45.
On or about the end September 2014, MEBA
Union Representative Bill Knowlton stated

App. 84
everything was fine with my performance and that I
should be hired. Mr. Knowlton said he checked what
the WSF called the Do Not Hire List. On December
11, 2014, I was hired at the MEBA Union Hall and
paid 3 months of the $50 monthly union dues, which
totaled $150. Bill Knowlton that I would be rehired
and start working at the WSF on January 6, 2015.
46.
On December 31, 2014, Linda Manning called
me and stated the management had made an
“executive decision” to not hire me.
47.
For a second time, I was not given notice and
opportunity to respond to the disciplinary charges
and the WSF refused to hire me.
48.
The 2013 firing, the 2014 refusal to hire,
Trimmer’s e-mails, Lacroix’s e-mails, Kosa’s
distribution of the e-mails, and the blacklisting me
with the Do Not Hire List which was distributed on
the State of Washington e-mail system and my
MEBA union e-mail system caused severe emotional
distress and economic loss including wage loss and
retirement benefit loss, and damage to my reputation
and business opportunities at the WashingtonState
Ferries, at my MEBA union, in the maritime field
and in the community.
49.
In early 2015, the Washington State Ferries
stated they wanted to give me a test as some kind of
settlement offer. As I understood the offer, even if I
passed the test, I would not become a full time
employee. I therefore decided not to accept the offer.
Other considerations are that Kosa would give the
test and it appeared Kosa had not been checked out
on any ferry under the WSF policy and U.S. Coast
Guard regulations, and I it appeared to me Kosa had
a bias against me since she was involved in the
process of firing me. I strongly believe that the

App. 85
settlement offer was an attempt to come up with a
new reason for not hiring me and that it was an
admission on the part of the management of the WSF
that I was terminated in violation of my
Constitutional rights.
50.
As stated in the Complaint, apart from the 3
days off I had to take for a couple medical and dental
appointments, I had to take a day off when a Staff
Chief Mike Lacroix harassed me after I spoke up
about my pay being changed to an incorrect amount.
The Defendants count this day as three days.
LaCroix eventually admitted it was wrong for him to
change my pay to the wrong amount and he changed
it back to the correct amount. Attached as Exhibit X
is a true and correct copy of an e-mail I obtained in
my Public Records Act request in which Elizabeth
Nicoletti Kosa learned about my request for that day
off while I was being harassed for speaking up about
my pay being decreased in violation of the CBA and
state law governing pay for Ferry employees. LaCroix
tried to turn it around and allege I was harassing
him when I used my First Amendment rights to
stand up for the rights of probationary employees.
51.
The Griffith’s answers to my interrogatories to
Griffith are not accurate with regard to the number
of my unavailabilities. Hart Declaration, Ex. E. The
Defendants also attempt to confuse with statistics in
their numbers of my unavailabilities by counting one
watch as two days. The way watches worked when I
was working at the Ferries was on-call oilers were
called and asked if they are available until one was
found. When an on-call oiler was available, that
person was assigned. The big picture is I requested
three for medical and dental appointments, two to
take Floyd to and from the airport (which the

App. 86
Defendants count as five), and one when Staff Chief
LaCroix was harassing me (which the Defendants
count as three). There are four unavailabilities which
I do not recall requesting. This means the actual
number – assuming the four unknowns are accurate
and are included – is ten unavailabilities. Some of
the unavailabilities the Defendants mistakenly
include another person’s watch in the morning or
afternoon after I was unavailable for a medical
appointment, a dental appointment, a preapproved
reason, or another reason (such as being harassed
when I noticed my pay was being improperly
decreased in violation of the CBA and state law). The
Defendants have included as unavailabilities their
administrative errors. The Defendants include what
they term 4 instances of unavailability when another
person had seniority and took the watch. Exhibits
AO, p. 1, AO, p. 2, AP, G, and AJ are true and correct
copies of documents I obtained in my 2014 Public
Records Act request. Exhibit AO, p. 1 is a
communication record dated September 24, 2013 and
the first entry states I should be pulled off a watch on
September 25, 2013 because Chris Sutton has
seniority, yet the Defendants use Exhibit AO, p. 1
(first telephone call on page) as “proof” I was
unavailable. It appears the Defendants are also
counting these two watches I was pulled off the
watch based on union seniority as four of the
unavailabilities. Another error happened with
Exhibit AO, p. 2 (fourth telephone call on page). The
Defendants called on September 5, 2013 and
confirmed I was available on September 6, 2013, and
I did work September 6, 2013, yet they misinterpret
this entry as an unavailability for September 6, 2013.
Exhibit AJ is a true and correct copy of one of my

App. 87
timesheets and shows I worked on September 6, 2013
– the staff members must have forgotten that when a
person works a night shift (September 6th), it shows
up on a timesheet (Exhibit AJ) as (September 7th).
The time sheets are records regularly kept in the
course of business. Another error happened with
Exhibit AP (third listing). The Defendants claim I did
not work on August 8, 2013 to August 9,2013, but I
worked what the Defendants mistakenly count as
two missed watches. See Exhibit AI, which is a true
and correct copy of my timesheet for August 8, 2013
and August 9, 2013. Exhibit AN is a true and correct
copy of my timesheet for a watch I stood October 31,
2013. The Defendants have again claimed I was not
available for this watch but the timesheet proves
their statement is not accurate. The Defendants also
include unavailabilities that were approved by
Rachel Morrison, and the unavailabilities that
resulted from the Dispatch not getting my requests
for the dates for medical appointments correct.
Exhibit G documents one of these instances in which
my three week advance notification did not get to the
Dispatcher. I had to state an unavailability in the
instance when I was being harassed by LaCroix after
I stood up for proper pay for probationary employees.
Other than that instance I believed all of the other
instances did not violate any rule, and even the one
instance of a short term notice appears to have been
protected by the First Amendment since I felt I was
standing up for the rights of probationary employees.
This would have all come out if I and my union
representative would have been allowed to present
my response to any allegation before I was
terminated by a letter sent through the mail that
contained allegations I had never seen before. I have

App. 88
reviewed the Deposition Transcript of Dave Hurtt. It
appears he had a similar amount or more
unavailabilities than I did as a probationary on-call
oiler and he was hired as a fulltime employee. This is
evidence the Defendants’ claim of excessive
unavailabilities was not valid, they violated my
Fourteenth Amendment Substantive and Procedural
rights, and they violated my First Amendment rights
of Free Speech, Free Association, and were
Retaliatory after I attempted to stand up for my First
and Fourteenth Amendment rights.
52.
On November 21, 2016, KING Channel 5 News
aired a story about senior managers at the WSF who
are attempting to get a $70,000 per year pay raise. I
read the December 2, 2016 King 5 Television online
story, “State Ferries apologizes for misleading claims
about pay raises” and watched the video report in the
story in the December 2, 2016 timeframe and
confirmed it was still on the website as of July, 2017,
and followed the link to the Griffith e-mail in which
she blames media coverage of a large pay increase
proposal for senior managers at the WSF on
“disgruntled former employees”. I believe she was
referring to me when she criticized whistleblowers as
“disgruntled former employees”. Attached as Exhibit
AY is a true and correct copy of the Griffith e-mail.

App. 89
Could you state your full name for the record.
A.
David J. Hurt.
Q.
Have you ever been deposed before?
A.
No.
Q.
Where do you currently work?
A.
Washington State Ferries.
Q.
And when did you start?
A.
January 6, 2015.
Q.
And what was your status when you first
started at the Washington State Ferries?
A.
On-call oiler.
Q.
Did you have some sort of training before you
became an on-call oiler?
A.
Yes, we had on-call intern orientation.
Q.
And could you generally describe what that
orientation involved.
A.
Basically it was explained to us what we'd be
dealing on the vessels.
Q.
Thank you. Would a dispatcher -- strike that.
Could you describe what an on-call oiler is?
A.
We fill in for permanent employees when
they're sick or have other commitments and can't
work.
Q.
And how would you know when you were going
to work?
A.
Dispatch would call and we'd say "Yes" or
"No."
Q.
And in those situations where you said "No,"
what was that called?
A.
I'm not sure what they call it.
Q.
Was it called an unavailability?
A.
There you go, yeah.
Q.
Thank you. To the best of your recollection
were you ever unavailable?
A.
There was a few times, and I cleared it with

App. 90
dispatch.
Q.
Could you describe some of those times you
were unavailable?
A.
Twice I had cataract surgery for my eyes, so I
was unavailable for two days per each eye. I think it
was two weeks apart. Another time was I had to
have a radiation treatment on my brain. That was
two days, I believe. There was a couple times where
I was physically sick and could not work. One time,
too, I had a really bad toothache and I had to have a
tooth pulled.
Q.
And was there any fallout for you being
unavailable?
A.
No.
Q.
Were you ever required to provide evidence for
the reason that you stated you were unavailable?
A.
No.
Q.
Were you ever brought up on any kind of
charges for being unavailable?
A.
No.
MR. HART: I think that's it for this witness. Do you
have any questions?
MR. SMITH: Yes.
BY MR. SMITH:
Q.
When you called in for your unavailability for
your surgeries, did you explain that you were not
available because you were having to have surgeries?
A.
Yes. I spoke to dispatch well in advance of
these procedures, and let her know that I wasn't – or
asked her if I could be unavailable basically.
Q.
And on those couple of occasions when you
were sick, did you explain that you were sick?
A.
Yes.
Q.
And you were genuinely sick and could not
serve?

App. 91
A.
Yes.
Q.
Did you ever state that you were unavailable
because you had to give a friend or relative a ride to
the airport?
A.
No.
Q.
Did you ever state that you were unavailable
for any reason of your personal convenience?
A.
Person convenience meaning like sports game
or something like that?
Q.
Yes.
A.
No.
Q.
Did you ever state that you are unavailable
because you wanted to do something for a friend?
A.
No.
Q.
Did you ever state you were unavailable
because you had a disagreement with a fellow crew
member?
A.
No.
Q.
Would you ever have called up 75 minutes
before your assigned watch and said you were
unavailable for a personal reason?
A.
No.
Q.
Why not?
A.
It wouldn't give them enough time to find
somebody to replace me.
Q.
What problem would that cause?
A.
The boat being stopped.
Q.
So the boat would not be able to sail?
A.
Well, it might be able to sail, but the guy that's
on watch currently would have to do at least one
extra round trip.
Q.
And of the times that you were called for duty,
approximately what percentage of those were you not
available?
A.
Oh, jeez.

App. 92
Q.
One percent, two percent?
A.
If that, yeah. Probably half a percent.
MR. SMITH: No further questions.
MR. HART: I've got some follow-up.
EXAMINATION
BY MR. HART:
Q.
Did you ever -- were you ever unavailable
based on any requirement of a girlfriend?
A.
What do you mean "requirement"?
Q.
Did a girlfriend ever have a medical issue
where you needed to take some time?
A.
One time I had to take her to the ER. One time
I had to take her to Swedish in Ballard to get a knee
replacement.
EXAMINATION
BY MR. SMITH:
Q.
On those two days were you called and you
were not available?
A.
No, I don't believe they called to dispatch me.
I've always given them a heads-up with stuff like
that, except for the emergency room one; but they
didn't call me to work that day.
MR. SMITH: No further questions.
MR. HART: No further questions.
CHANGE SHEET
…
PAGE LINE CORRECTION AND REASON
4
4
LAST NAME IS HURTT
…

